   March 18, 2004




Acquisition
Contracts Awarded for the Coalition
Provisional Authority by the Defense
Contracting Command-Washington
(D-2004-057)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CONUS                 Continental United States
COR                   Contracting Officer’s Representative
CPA                   Coalition Provisional Authority
DCAA                  Defense Contract Audit Agency
DCC-W                 Defense Contracting Command-Washington
DCMA                  Defense Contract Management Agency
FAR                   Federal Acquisition Regulation
GSA                   General Services Administration
MOBIS                 Management, Organizational, and Business Improvement Services
ORHA                  Office of Reconstruction and Humanitarian Assistance
PNM                   Price Negotiation Memorandum
SAIC                  Science Applications International Corporation
WHS                   Washington Headquarters Service
          Office of the Inspector General of the Department of Defense
Report No. D-2004-057                                                    March 18, 2004
   (Project No. D2003CF-0152)

      Contracts Awarded for the Coalition Provisional Authority by
            the Defense Contracting Command-Washington

                                Executive Summary

Who Should Read This Report and Why? The acquisition and contracting community
in DoD as well as the key officials in the Department of the Army who have contract
oversight responsibility for rebuilding Iraq should read this report. The report provides
insight on the actions that members of the Office of Reconstruction and Humanitarian
Assistance/Coalition Provisional Authority and the Defense Contracting
Command-Washington took when awarding contracts for humanitarian assistance. The
report also provides information regarding post-award oversight by DoD officials of the
contractors involved.

Background. In May 2003 the Defense Contract Audit Agency began reviewing
contracts that the Defense Contracting Command-Washington awarded for the Office of
Reconstruction and Humanitarian Assistance/Coalition Provisional Authority. During
the review, the Defense Contract Audit Agency found irregularities in both the award and
administration of the contracts and recommended that the Inspector General of the
Department of Defense perform an in-depth review. Between February 2003 and August
2003, the Defense Contracting Command-Washington awarded 24 contracts, valued at
$122.5 million. Thirteen of the 24 contracts, valued at approximately $111 million, were
awarded on a sole-source basis to fill urgent needs. Of the 24 contracts, 16 were awarded
for services and 8 were awarded for computer equipment. As of November 2003, 7 of
the 24 contracts were ongoing. The contracts were primarily for humanitarian assistance,
such as media support, and consultants to assist the Office of Reconstruction and
Humanitarian Assistance/Coalition Provisional Authority. The contracts we reviewed did
not involve rebuilding the infrastructure of Iraq. The Army Corps of Engineers and the
U.S. Agency for International Development awarded those contracts, and the General
Accounting Office is reviewing them.

The Office of Reconstruction and Humanitarian Assistance was established in
January 2003 to rebuild Iraq. The President of the United States placed the office within
the DoD. The office began deploying overseas on March 16, 2003, and had
approximately 2 months to organize before deploying and beginning its mission. In
May 2003, the Office of Reconstruction and Humanitarian Assistance was placed under
control of the Coalition Provisional Authority, and in June 2003 DoD dissolved the
Office of Reconstruction and Humanitarian Assistance. The Coalition Provisional
Authority assumed the functions that the Office for Reconstruction and Humanitarian
Assistance previously performed.

Results. The Department of Defense did not plan for the acquisition support that the
Office of Reconstruction and Humanitarian Assistance required to perform its mission.
As a result, supplies and services were quickly acquired and contracting rules were either
circumvented or liberally interpreted. Specifically,

       •   personnel who generated contract requirements did not establish firm contract
           requirements (8 of 24);

       •   of the 24 contracts awarded, 18 were awarded using General Service
           Administration Federal Supply Schedules and contracting officers misused
           General Service Administration Federal Supply Schedules (10 of 18);

       •   contracting officers inappropriately awarded personal services contracts
           (10 of 24);

       •   contracting officers permitted out-of-scope activity (1 contract);

       •   contacting officers did not support price reasonableness determinations (22 of
           24); and

       •   officials performed little or no Government surveillance on awarded contracts
           (13 of 24).

As a result, DoD cannot be assured that the best contracting solution was provided, that
DoD received fair and reasonable prices for the goods and services, or that the
contractors performed the work the contract required.

To preclude future problems, the Deputy Secretary of Defense should designate an office
to study existing DoD post-war strategy and establish responsibilities, policies, and
procedures for acquisition of goods and services in support of future post-war occupation
and relief operations. Also, the Commander, Defense Contracting
Command-Washington should analyze any ongoing contracts for personal services,
determine the Government liability, and initiate appropriate termination actions. The
commander should also comply with the Federal Acquisition Regulation regarding
documentation of contract files, appoint trained points of contact or contracting officer
representatives for Iraqi contracts, require monthly status reports of the contracts, ensure
the Government is refunded overpayments made to contractors, and use Federal Supply
Schedules for their intended purposes.

The problems identified are primarily attributed to the need to react quickly to the rapidly
changing situation in Iraq in early 2003 and that acquisition support was an afterthought
to the Office of Reconstruction and Humanitarian Assistance. We did not identify where
actions taken by Government personnel were based on the desire for personal gain
despite numerous acquisition problems. We recognize that the Defense Contracting
Command-Washington contracting personnel were in a difficult and time- sensitive
position. However, the Federal Acquisition Regulation was established to ensure that
DoD obtains quality products and services at fair and reasonable prices and the
Regulation was not followed for 22 of the 24 contracts. Accordingly, the Commander,
Defense Contracting Command-Washington, should perform a review and initiate
appropriate administrative actions for contracting officers that did not follow prescribed
procedures.

Management Comments and Audit Response. The Staff Director and Special Advisor
to the Under Secretary of Defense for Policy suggested that the Recommendation to
designate an office to study existing DoD post-war strategy should be revised and

                                             ii
redirected to the Deputy Secretary of Defense. He believed that the recommendation was
too general and that it involves the activities and expertise of more than one component
within DoD. We agreed with that suggestion and changed and redirected the
recommendation to the Deputy Secretary of Defense.

The Commander, Defense Contracting Command-Washington, generally concurred with
the majority of Recommendations. However, the commander did not believe he had a
basis to obtain a refund on payments for two subject matter experts. The commander
acknowledged that the Defense Contracting Command-Washington made mistakes and
took shortcuts in supporting the Office of Reconstruction and Humanitarian Assistance.
The commander disagreed with the need to perform a review and initiate appropriate
administrative action against the contracting officers who circumvented the Federal
Acquisition Regulation and misused the General Administration Federal Supply
Schedules. The commander further stated that there was no evidence that any contracting
officials in his command acted illegally or in bad faith and that it was unconscionable to
recommend that administrative action be taken against the contracting officials and not
hold senior officials responsible for generating the demands accountable. We believe
there is a basis for collecting a refund for any overpayments for the two subject matter
experts. Because of the inappropriate contracting actions identified there is a need to
perform a detailed review of the contract files and actions and determine if any
administrative action is warranted. We request that Commander, Defense Contracting
Command-Washington, reconsider his position and provide additional comments to the
final report by May 20, 2004. See the Finding section of the report for a discussion of the
management comments and the Management Comments section of the report for the
complete text of the comments.




                                            iii
Table of Contents

Executive Summary                                               i

Background                                                     1

Objective                                                      3

Finding
     Contracts for Rebuilding Iraq                             4

Appendixes
     A.   Scope and Methodology                                37
     B.   Prior Coverage                                       38
     C.   Contract Information                                 40
     D.   Contract Issues                                      42
     E.   Documentation Issues                                 44
     F.   Surveillance Information                             45
     G.   Report Distribution                                  46

Management Comments
     The Office of the Under Secretary of Defense for Policy   49
     Administrative Assistant to the Secretary of the Army     50
Background
    In May 2003 the Defense Contract Audit Agency (DCAA) began a review of
    contracts that the Defense Contracting Command-Washington (DCC-W) awarded
    in support of the Office of Reconstruction and Humanitarian Assistance (ORHA).
    The Under Secretary of Defense (Comptroller)/Chief Financial Officer requested
    the review. The DCAA found a number of problems in both the award and the
    administration of contracts, and on June 10, 2003, the Director, DCAA sent the
    Inspector General of the Department of Defense (IG DoD) a memorandum
    recommending that the IG DoD conduct a review. The DCC-W is a division
    within the Office of the Administrative Assistant to the Secretary of the Army.
    DCC-W provides support to the Army and the other Defense agencies within the
    National Capital Region.

    Pre-Planning. In October 2002 a senior interagency team was convened to
    assess the conditions in Iraq and to define sector-by-sector relief and
    reconstruction plans. The team included representatives from several agencies
    and Departments including the DoD, the National Security Council, and the
    Office of Management and Budget. The team developed plans for immediate
    relief operations and long-term reconstruction in 10 different areas: health,
    education, water and sanitation, electricity, shelter, transportation, governance,
    agriculture and rural development, telecommunications, and economic and
    financial policy.

    Formation and Responsibilities of ORHA. On January 20, 2003, President
    George W. Bush signed National Security Directive 24, that gave DoD
    responsibility for post-war control of Iraq and established the ORHA. The
    Secretary of Defense appointed a retired lieutenant general as the head of ORHA.
    The position description of the Director of ORHA stated:
               This Office [ORHA] is established at the direction of the President of
               the United States, and is located for administrative purposed under
               Boards, Commissions and Task Forces, Washington Headquarters
               Services. This Office is under the supervision of the Under Secretary
               of Defense for Policy.

    Furthermore, under “Supervisory Controls” of the position description it stated
    that:
               The employee [Director of ORHA] reports directly to the Under
               Secretary of Defense for Policy, receiving very broad policy goals,
               objectives, and policy direction.

    The Office of the Under Secretary of Defense for Policy signed this position
    description on February 11, 2003, but it was not approved and certified by the
    Director, Administration and Management, Office of the Secretary of the Defense
    until March 5, 2003, approximately 6 weeks after the Director of ORHA assumed
    this position.




                                            1
On May 13, 2003, the Secretary of Defense designated Ambassador L. Paul
Bremer as the top administrator for the Coalition Provisional Authority (CPA)
and later placed ORHA under the CPA organization. On May 21, 2003, the
Deputy Secretary of Defense designated the Secretary of the Army as the DoD
Executive Agent for Support of ORHA. As a result, the Secretary of the Army
was then responsible for providing administrative, logistics, and contracting
support to ORHA/CPA. On June 16, 2003, the Deputy Secretary of Defense
issued a memorandum dissolving ORHA and the CPA assumed ORHA functions,
responsibilities, and legal obligations.

The mission of ORHA/CPA is to run Iraq until a new Iraqi government is elected.
The core priorities of ORHA/CPA are: provide security and immediate
humanitarian aid, rebuild Iraqi infrastructure, staff Iraqi ministries, bring to
justice the top officials of Saddam Hussein’s former regime, rebuild the economy
(in large part through the resumed sale of Iraqi oil), and establish a new Iraqi
government. ORHA/CPA comprises a front office in Baghdad, Iraq, and a rear
office in Washington, D.C. The mission of the ORHA/CPA rear office is to
provide the ORHA/CPA front office with the necessary personnel and equipment
to accomplish its mission.

Contracting Process. When ORHA was established in January 2003, no written
plans or strategies for obtaining acquisition support existed. Effective acquisition
planning incorporates a comprehensive plan for fulfilling an agency need in a
timely manner and at a reasonable cost. Planning begins at the point when agency
needs are established and includes the description of requirements to satisfy
agency needs, solicitation and selection of sources, award of contracts, contract
financing, contract performance, and contract administration.

According to a DCMA acquisition specialist, in February 2003 the Washington
Headquarters Services was assigned the responsibility to provide administrative
support to ORHA. After learning that ORHA had no acquisition support, the
Washington Headquarters Services requested that the Defense Contract
Management Agency (DCMA) provide an acquisition specialist who began work
on March 3, 2003, to provide ORHA acquisition support. Because one of its
missions is to support the Office of the Secretary of Defense, DCC-W provided
contracting support to ORHA. Two contracts were awarded before DCMA
provided acquisition support. The DCC-W contracting officer provided ORHA
personnel with guidance for preparing the required documentation for those two
contracts.

After DCMA appointed in early March 2003 an acquisition specialist who would
assist ORHA, the ORHA division leaders generated contract requirements and
passed those requirements to the DCMA acquisition specialist. The acquisition
specialist prepared acquisition documents such as justifications for not fully
competing contracts, statements of work, and cost and technical evaluations of
contractor proposals. The DCMA acquisition specialist stated he forwarded the
completed acquisition documentation to DCC-W, and they awarded the contracts
to fulfill the requirements. DCMA eventually provided 3 acquisition specialists
and one contracting officer to assist ORHA/CPA.




                                     2
    During early- to mid-March 2003, the requirements were generated very quickly,
    and ORHA personnel did not give the DCMA acquisition specialist much time to
    prepare the required acquisition documents before the contracts were awarded and
    personnel and items deployed overseas. In several cases, the DCMA specialist or
    DCC-W contracting personnel, or both, had as little as 3 days for contract
    preparation and award. Of the 24 contracts reviewed, 9 were awarded either prior
    to or the day that ORHA deployed (March 16, 2003).

    According to a DCMA acquisition specialist, the ORHA established a
    requirements review board in-theater to review and evaluate contract
    requirements. This board was formalized with a memorandum of agreement
    between ORHA and DCMA that was signed on April 8, 2003.

    Contracting Process With the Requirements Review Board. Through
    interviewing DoD personnel, we gained an understanding of how the review
    process worked. The ORHA/CPA front office generated requirements and
    forwarded them to the Requirements Review Board. The board, located in
    Baghdad, Iraq, was responsible for approving the requirements. After approval, a
    “Requirements” form was generated and forwarded to the Office of the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer for review and
    approval. This Under Secretary was responsible for funding approval. After a
    requirement was approved, it was sent to the Army, which was the executive
    agent for ORHA/CPA. The Army determined the most appropriate office to
    contract for the work. Generally, services or items that were not construction
    related and dealt with humanitarian relief were handled by the DCC-W. Other
    requirements that specifically related to rebuilding the infrastructure of Iraq were
    given to the Army Corps of Engineers who managed the Army Logistics Civil
    Augmentation Program. Kellogg, Brown, and Root was one of the prime
    contractors for the program. According to the office of the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, contracts for items and services
    that were to be provided or performed with seized Iraqi funds or vested Iraqi
    funds were returned to the ORHA/CPA office in Baghdad for award of the
    contract. On March 28, 2003, DCMA provided one contracting officer who
    assisted the ORHA/CPA front office. As of October 27, 2003, the Army had a
    contracting office in Baghdad. That contracting office was composed of 12 to 14
    contracting officials.

    Current Status of DCC-W Contracts. DCC-W shows that of the 24 contracts
    DCC-W awarded for the ORHA/CPA office, 7 were ongoing as of
    November 2003, and 17 have been either terminated early or finalized after the
    work was performed.

Objective
    Our objective was to examine contracting procedures that officials at the DCC-W
    used to award selected contracts for the CPA. Specifically, the audit consisted of
    a review of documentation that supports the requirements determinations, types of
    contracts used, use of other than full-and-open competition, and determination of
    price reasonableness. See Appendix A for a discussion of the scope and
    methodology. See Appendix B for prior audit coverage related to the objective.



                                         3
           Contracts for Rebuilding Iraq
           The DoD did not adequately plan for the acquisition support that the
           ORHA required to perform its mission. Supplies and services the
           ORHA/CPA used in rebuilding Iraq were quickly acquired and contracting
           officers circumvented procedures. ORHA/CPA personnel who generated
           the contract requirements wanted instant results. In yielding to the
           pressure, DCC-W contracting officers neither properly awarded nor
           administered the 24 contracts valued at $122.5 million. In addition,
           ORHA/CPA and DCC-W personnel:

                  •   did not establish firm contract requirements (8 of 24),

                  •   misused General Service Administration (GSA) Federal
                      Supply Schedules (10 of 18),

                  •   awarded personal services contracts prohibited by the Federal
                      Acquisition Regulation (FAR) (10 of 24),

                  •   allowed out-of-scope activity (1 contract),

                  •   did not perform or support price reasonableness determinations
                      (22 of 24), and

                  •   conducted inadequate surveillance of awarded contracts
                      (13 of 24).

           Urgent requirements, the desire of contracting officers to serve their
           customers, and a lack of training of the personnel assigned surveillance
           duties led to the irregularities. As a result, DoD cannot be assured that it
           was either provided the best contracting solution or paid fair and
           reasonable prices for the goods and services purchased.


Contracts Reviewed
    We reviewed 24 contracts that DCC-W awarded between February 24, 2003, and
    August 14, 2003, in support of the ORHA/CPA. The contracts were awarded for
    approximately $122.5 million; and as of October 10, 2003, about $38.7 million of
    the funds have been expended.

           •   16 of the 24 were service contracts

                  − 9 for individual subject matter experts

                  − 2 for linguists who specialized in Arabic

                  − 2 for Iraqi Military




                                         4
                    − 1 for establishment and support of the Iraqi Reconstruction and
                      Development Council

                    − 1 for establishment of the Iraqi Free Media Program

                    − 1 for information technology support

            •   8 of the 24 were for supplies or computer equipment

     Of the 24 awarded, 15 of the contracts valued at $115.9 million, were awarded on
     a sole-source basis. Fourteen of the 15 cited urgent requirements as a basis for
     the sole-source awards. Also, 18 of the 24 contracts were awarded to contractors
     using Federal Supply Schedules.

     Overall, the 24 contracts were awarded to 16 different contractors and all were
     awarded with appropriated funds from the Government. We did not review the
     contracts relating to the overall reconstruction and reestablishment of the Iraqi
     infrastructure.

     Of the contracts awarded, eight were awarded on a sole-source basis, citing
     unusual and compelling urgency and only one responsible source, to Science
     Applications International Corporation (SAIC), Incorporated. The contracts were
     valued at $108.2 million (88.4 percent of all the dollars awarded for the
     24 contracts). These contracts were awarded with effective dates between March
     5, 2003, and July 18, 2003.

     The justifications for not competing the SAIC contracts stated,
                We need the immediate services of a fully qualified contractor who has
                the unqualified support and confidence of the Pentagon leadership and
                who was prepared to begin work and deploy as soon as possible.

     The lead contracting officer stated that SAIC was awarded the contracts because
     the contracting officer knew that SAIC was in a position to quickly fulfill the
     requirements and held the required insurance for operating in a hazardous
     environment. Furthermore, the contracting officer was aware that SAIC had a
     Federal Supply Schedule for Management, Organizational, and Business
     Improvement Services (MOBIS). Of the eight contracts awarded to SAIC, seven
     were awarded before the ORHA/CPA had a requirements review board process
     established. See Appendix C for further details.


Criteria
     The FAR and the Defense FAR Supplement were the primary criteria governing
     contracting for goods and services. The regulations require orderly processes
     that include analyses of the requirements, how to best fill requirements by way of
     market research, analyses of the various types of contracts to use, determinations
     as to whether fair and reasonable prices are paid, and oversight of the
     performances and billings after the contracts are awarded.


                                             5
    Many of the contracts reviewed were awarded under the auspices of FAR
    Subpart 6.302-2, “Unusual and Compelling Urgency,” which ultimately
    eliminated the need for competition. The FAR permits the use of GSA Federal
    Supply Schedules to obtain commonly used commercial supplies and services at
    prices associated with volume buying. The FAR also defines what constitutes a
    personal service and allows for Time and Material contracts. Time and Materials
    contracts allow that supplies or services be acquired on the basis of direct labor
    hours at specified fixed hourly rates and materials at cost, including, if
    appropriate, material handling costs as part of material costs.

    The FAR describes measures that contracting officers must follow to award
    contracts and requires that contracting officers shall not award contracts unless all
    of the regulations have been met and that purchases are made at fair and
    reasonable prices.


Acquisition Support
    The DoD did not adequately plan for acquisition support when establishing the
    ORHA. The office was established on January 20, 2003, and according to the
    former ORHA Director, he did not have an office from which to work until after
    February 1, 2003. The former ORHA Director stated that he did not start
    receiving operations and logistics personnel to accomplish the mission until the
    middle of February. During this time, a formal process for obtaining goods and
    services was not established. To obtain personnel, the ORHA staff made
    suggestions to the Director regarding the hiring of key personnel, and if the
    individuals appeared qualified, the Director told his staff to hire them.

    The ORHA did not have any acquisition personnel assigned to the organization
    until the beginning of March 2003, when DCMA provided an acquisition
    specialist. According to DCMA, it became involved only after an individual
    tasked with providing ORHA administrative support for equipment and facilities
    contacted DCMA because that individual had no knowledge of acquisition
    procedures. The Director of DCMA then provided acquisition personnel to
    ORHA, and by the beginning of April 2003, DCMA had three acquisition
    specialists in Washington, D.C., and one contracting officer in Baghdad.

    The DCMA official that assisted ORHA stated that when he arrived at the
    Pentagon on March 3, 2003, no acquisition plans to buy equipment or hire
    personnel were in place. Furthermore, because no acquisition personnel were
    assigned to ORHA, the necessary documentation to begin the acquisition process
    was not being prepared. The acquisition specialist also stated that ORHA wanted
    certain subject matter experts and services under contract and equipment needed
    to be purchased prior to deploying to Kuwait (March 16, 2003) and eventually
    Iraq. The DCMA specialist began preparing the acquisition documentation to
    provide the DCC-W contracting officials some idea of the requirements.

    On April 8, 2003, ORHA established a formal requirements review board. The
    board reviewed the proposed contract requirements that ORHA/CPA generated



                                          6
    and validated the needs. Of the 24 contracts reviewed, 15 of the contracts,
    currently valued at $114 million, were awarded prior to the board’s involvement.

    Overall, ORHA lacked the time and type of personnel who could adequately plan
    and execute the procurements. ORHA had approximately 2 months to staff the
    office, define its mission, determine requirements, and obtain personnel and
    supplies needed to begin the mission. A key oversight of the DoD planners was
    not recognizing earlier in the process the need for acquisition personnel. By the
    time acquisition personnel became involved, a mindset was in place that
    prescribed acquisition procedures could not be followed if the goods and services
    the ORHA officials were demanding were to arrive in a timely manner.

    Accordingly, we believe the Deputy Secretary of Defense should designate an
    office to study the existing DoD post-war strategy and establish clear
    responsibilities, policies, and procedures for the rapid acquisition of necessary
    goods and services in support of any future post-war occupation and relief
    operations. The study should recognize the need to incorporate a provision for
    acquisition support in the early stages of these operations. This will minimize the
    problems noted in this report during future operations.


Acquisition Planning and Contract Requirements
    ORHA did no acquisition planning and provided little notice or details of contract
    requirements to contracting officials. Written acquisition plans required for two
    large contracts were not prepared. As a result, the DCMA specialists had very
    little time and information needed for preparing the required acquisition
    documentation before forwarding the requirements to DCC-W. Furthermore,
    DCC-W acknowledged that it had little time and very little information to use in
    awarding the contracts.

    Generating Requirements. Contract requirements, which expressed the wants
    of ORHA officials, were generally provided verbally. Under normal
    circumstances, an integrated team of acquisition specialists and program
    specialists would prepare an acquisition plan describing the costs of the program,
    the potential contractors, and how the effort would be monitored. Based on the
    documentation available, we could not determine the actual dates the
    requirements were developed for any of the contracts. However, for the contracts
    awarded to SAIC for subject matter experts, we determined that contracting
    officials were provided little support for the requirements.

    The DCMA specialist who was involved with the contracts explained that ORHA
    officials would contact and inform him that a specific person needed to be put on
    contract. The statement of work was then developed based on a brief statement
    from ORHA officials and the skill level of that specific person. The DCMA
    specialist felt that a requirements validation process needed to be in place.

    To illustrate the attitude of ORHA personnel who were generating requirements
    the specialist stated that he was told:



                                         7
           . . . these are the people we need to bring on board, and here is going to
           be the minimum requirements for their job, and make the rest of it
           happen.

In addition, the DCMA specialist added that ORHA officials neither followed nor
tried to learn the acquisition process. Furthermore, an e-mail, from one DCMA
specialist, dated March 21, 2003, to another DCMA specialist stated:
           Four names, attached, are contractors that [ORHA Official] wants hired
           for the ‘Governance Group.’ I'm going to get more details. But wanted
           to forward to you soonest. Perhaps you can check with SAIC to see if
           they already have these guys on their list, or any other info.

Contract DASW01-03-F-0537 was awarded 6 days later (March 27, 2003) to
fulfill the requirement.

For another subject matter expert who was hired, ORHA received the proposal
from the subject matter expert on March 13, 2003, and forwarded the proposal,
the statement of work, and the resume of the subject matter expert to the DCMA
specialist on March 14, 2003. Contract DASW01-03-F-0516 was awarded 2 days
later with an effective date of March 16, 2003, to fulfill the requirement. The
DCMA specialist provided the expert’s proposal as documentation supporting the
contract. The contract files did not contain anything documenting that a
requirement existed and that a specific subject matter expert was necessitated.
According to the DCMA specialist, a verbal requirement statement from the
ORHA official, a proposal, and resume was all he had to support the requirement.
Furthermore, no documentation indicated that ORHA planned the requirement
before the subject matter expert submitted the proposal. The DCMA specialist
wrote the statement of work based on the expert’s proposal and brief requirements
comments from the ORHA official. The expert who submitted the proposal
stated:
           The reconstruction of Iraq is going to require a subject matter expert
           with a detailed and thorough working knowledge of the current
           situation in Iraq, and with unique subject matter expertise to support
           the accomplishment of the tasks to be undertaken.

The justification and approval was prepared and signed, indicating the subject
matter expert’s firm as the contractor. However, that particular subject matter
expert was hired under the GSA Federal Supply Schedule for SAIC. According
to the contracting officer, when negotiating began, the subject matter expert stated
that he wanted the same terms as another subject matter expert hired under the
GSA Federal Supply Schedule for SAIC. Because the requirement was urgent
and the subject matter expert was deploying overseas that weekend, the
contracting officer stated he had no other choice but to award the contract using
such a method.

We also questioned other requirements from the standpoint that services
contracted were not fully needed. For example, at least one of the subject matter
experts worked only a brief period after being personally selected. After
reviewing the subject matter expert invoices that the contractor submitted, we



                                          8
noted that the subject matter expert did not work the full term of the contract.
The subject matter expert for SAIC worked only 29 of 92 days (32 percent of the
days) scheduled under the base period of the contract DASW01-03-F-0536. The
invoiced labor hours totaled about $14,200 (31.5 percent of the total amount
permissible under the contract). Furthermore, travel and administrative expenses
totaled about $6,800 (29 percent of the total invoiced amount).

When we questioned the contracting officer about the relevancy of the
requirement and the short amount of time worked, the contracting officer stated
that she was not aware that the subject matter expert worked only those few days.
She also added that if we wanted to determine whether the subject matter expert
was a valuable asset to the Government, we would have to contact the Baghdad
office.

Another subject matter expert admitted that his contribution to the ORHA/CPA
was “winding down” around July 18, 2003. According to the subject matter
expert:
           I submitted my last real invoice at about the same time. I have one
           more invoice to submit for my travel home and then I think I’m
           finished unless there is something someone wants me to do.

The subject matter expert added that he asked SAIC to modify his contract to
change the period of performance. He did not, however, receive a response and
was reported to be on vacation in August. The contract was awarded with an
effective date on March 16, 2003. The base period for that contract concluded
approximately September 11, 2003. SAIC invoiced about $50,300 on contract
DASW01-03-F-0516 from June 21, 2003, through September 12, 2003, including
the time the subject matter expert was reported to have been on vacation. DCC-
W should determine whether the Government should be refunded any money for
this contract.

Written Acquisition Plans. Written acquisition plans were not prepared for
contracts DASW01-03-F-0533 and DASW01-03-F-0508, as the Defense FAR
Supplement requires. The Defense FAR Supplement requires a written
acquisition plan for acquisitions that are either production or services when the
total cost of contracts for the acquisition program is estimated at $30 million or
more for all the years or $15 million or more for any one fiscal year. The
program manager or other official responsible for the program is also responsible
for acquisition planning. Some of the FAR requirements that a written acquisition
plan must include are:

       •   cost goals for the acquisition and the rationale supporting them,

       •   prospective sources of supplies or services that meet the need,

       •   management system the Government will use to monitor the
           contractor’s effort, and




                                       9
       •   statement of how the contract will be administered, including how
           inspection and acceptance corresponding to the performance criteria of
           the work statement will be enforced.

Contract DASW01-03-F-0533, the Iraqi Free Media Program, was initially
awarded for $15 million, and as of September 30, 2003, was valued at
$82.3 million, and contract DASW01-03-F-0508, the Iraqi Reconstruction and
Development Council, was initially awarded for $7.7 million and was valued at
$24.8 million after exercising 1 option, required written acquisition plans but
none were prepared. Both contracts were awarded on a sole-source basis to SAIC
from its commercial business services Federal Supply Schedule under GSA. The
justification for not competing the Iraqi Free Media contract was that only one
acceptable source existed and unusual and compelling urgency. The justification
for the Iraqi Reconstruction and Development Council was of unusual and
compelling urgency. No documentation existed in the contract file that waived
the requirement for a written acquisition plan.

        Iraqi Free Media Program. Contract DASW01-03-F-0533, the Iraqi
Free Media contract was awarded as a time and materials contract to SAIC on a
sole-source basis from its commercial services Federal Supply Schedule under
GSA. The contract was awarded on March 11, 2003, for $15 million and as of
September 30, 2003, was valued at $82.3 million (approximately 71 percent of the
costs were for materials). No detailed plan existed that describe and support the
costs of the Iraqi Free Media contract. Also, market research that could help
determine contractors who were capable of performing the work was not
available. In addition, SAIC was not monitored by the ORHA office to ensure
work was adequately performed. For example, SAIC was supposed to provide a
work plan 5 days after the contract was awarded describing how it would
accomplish the contract, but the plan was not provided to the government until
2 months after the contact was awarded. Because of changing requirements, the
dollar amount of the contract increased twice.

The total requirements for the contract were not known when the contract was
awarded because one of the tasks that SAIC was to perform was to conduct a
battle damage assessment of the media in Iraq. Besides ORHA, a second office
within the Pentagon provided SAIC with guidance during contract performance
which led to increased costs. As a result, the contract was under almost constant
revision since award. A modification issued to the contract with an effective date
of July 18, 2003, was not signed until September 30, 2003. The value of the
contract is $82.3 million through December 31, 2003. According to DCC-W
contracting officials, the contract will not be renewed in December. Although
one of the justifications for awarding the current contract to SAIC was that only
one source was acceptable, DCC-W is now in the process of competing the
requirement.

        Iraqi Reconstruction Development Council. Contract
DASW01-03-F-0508, the Iraqi Reconstruction Development Council contract,
was awarded as a time-and-materials contract to SAIC on a sole-source basis
from its commercial business services Federal Supply Schedule under GSA. The
contract was awarded on March 5, 2003, for $7.7 million; however, including the



                                    10
option periods through November 2003 the value is $24.8 million. The purpose
of the contract was to provide 150 subject matter experts:
           . . . in a variety of administrative and technical fields to facilitate the
           development of effective governmental structures at the local,
           provincial and national levels in a post-conflict environment.

To perform the requirements of the contract, the subject matter experts were
located throughout Iraq. No documentation existed that indicated an acquisition
plan detailing the expected cost of the contract or how the Government would
conduct surveillance of the 150 individuals. Soon after the contract became
effective, costs began to rise. For example, an e-mail from one DCMA specialist
to another DCMA specialist stated that 30-percent of the subject matter experts
hired were going to quit the contract unless they obtained life insurance.
Furthermore, SAIC requested that the Government modify the contract to use
different labor categories that were actually higher labor rates than negotiated in
the contract because the subject matter experts required higher compensation.
Beginning in September 2003, SAIC billed the Government for $191,000 for four
labor rates; however, no documentation exists that shows these rates are part of
the contract.

An acquisition plan that described Government surveillance over the contractor
performing throughout Iraq would have been especially important. However, no
Government surveillance was performed on the contract in Iraq. As of
November 19, 2003, the contract was being modified, which further increased the
cost of the contract.

Statements of Work. The statements of work were vague and generally
mirrored information either contractors or officials provided for establishing the
requirement. For example, an e-mail from one DCMA specialist to the
contracting officer stated:
           Here is the SOW for the oil SME [subject matter expert]. [Government
           employee] recommended we pull out the specific tasks that made this
           classified to expedite, so you will notice the work requirements are
           quite broad.

The specific tasks the government actually intended the contractor to perform
were removed from the statement of work in order to award the contract in time.
As a result, the work requirements for this subject matter expert were broad in
order to award the contract. Our review of contract folders, statements of work,
and e-mails showed that statements of work were developed after the subject
matter experts were identified. Furthermore, the subject matter experts were
identified by name on five of the statements of work as the specific individual to
perform the work.

Generally, ORHA/CPA officials and subject matter experts agreed to work
together on the requirements of the contract and the terms of the salary. The
information was provided to the DCMA acquisition specialists who prepared
statements of work for inclusion in the contract. The contracting officer awarded
a contract to the prime contractor (SAIC) who employed the subject matter expert


                                          11
    as either a subcontractor or an employee. Only the subject matter expert could
    perform the statement of work because of the way it was written. We noted that
    contract DASW01-03-F-0903 contained a major statement of work tasking that
    matched identically the resume of a subject matter expert. The statement of work
    also included the name of the particular subject matter expert being contracted.

    Market Research. The FAR Part 10, “Market Research,” requires that market
    research be conducted for procurements. Market research allows the Government
    to determine how many contractors are capable of fulfilling the Government
    requirement as well as promoting more competition for the requirement. Such
    promotion for competition is especially true for commercial items that many
    contractors are available to meet the requirements of the Government. Of the
    24 contracts reviewed, market research was conducted for 2 contracts and was not
    conducted for 11 other contracts. For the remaining 11 contracts, we could not
    determine whether market research was conducted. A DCC-W contracting officer
    obtained three quotes for three of the contracts competed and four quotes for three
    other competed contracts. The contracting officer stated that he selected the
    contractors for consideration based on his knowledge that each contractor could
    meet the requirement in the time required.

    Computer Equipment Purchases. Justifications for the requirement to purchase
    supplies were also lacking. FAR Subpart 8.404 states that if the value of the
    delivery order is more than the micro-purchase threshold ($2,500) and the
    requirement identifies a “particular brand name, product or feature of a product
    peculiar to one manufacturer” then “the ordering office shall include an
    explanation in the file as to why the particular brand name, product, or feature is
    essential to satisfy the agency’s needs.”

    Of the 24 contracts awarded, 2 were for particular computer hardware and
    software. One requirement, for example, requested 175 NEC 18” Flat Panel
    Monitors with a specified part number, particular Hewlett Packard printers and
    scanners, and Palm Organizers. However, contracting officials did not prepare a
    written explanation that identified the necessity for these specific items. The
    contracting officer stated the technical representatives submitted the requirement.
    The contracting officer would normally question the specificity, but because of
    the necessity of the requirement, he did not have time.


Use of GSA Schedules
    Of 24 contracts reviewed, 18 were awarded using the GSA Federal Supply
    Schedules as follows:

           •   7 were awarded for specific subject matter experts,

           •   5 were awarded pertaining to computer software and hardware,

           •   2 were awarded for linguists who specialized in Arabic,




                                        12
       •   1 was awarded to obtain Iraqi Nationals and other individuals to assist
           the ORHA/CPA with its mission,

       •   1 was awarded pertaining to the Iraqi military,

       •   1 was awarded for Iraqi Free Media, and

       •   1 was awarded for information technology support.

Federal Supply Schedules. DCC-W contracting officers inappropriately used
the GSA Federal Supply Schedules in awarding 10 contracts. Of the 10 contracts,
7 were for specific subject matter experts, 2 were for linguist services, and 1 was
for the Iraqi Free Media. Contracting officers can view GSA contracts on the
GSA Advantage! Web site. The Web site provides the information necessary for
determining and verifying schedule applicability. Contracting officers using the
Federal Supply Schedules can also request a publication of the schedules through
a written request to GSA.

 DCC-W contracting officials stated that they did not review or request the
schedules. Instead, DCC-W relied on the contractor to make its own
determination as to whether the contractor could or could not comply with the
requirement under its GSA schedule. DCC-W did not consistently verify that the
proposed GSA schedules corresponded to the contract requirements. The
contracting officers trusted that the contractor would appropriately and accurately
identify the labor categories on the schedule that related to the requirement.
DCC-W had a predetermined dollar range that the subcontractors or employees
should have been paid. If the proposed labor category fell into the range, the
proposal would be accepted with little or no negotiation.

Labor Category Definitions. Although $108.2 million of services were
purchased from the SAIC Federal Supply Schedules, we could not determine
labor category definitions. We questioned the contracting officers about the
definitions within the MOBIS schedule that SAIC provided. The contracting
officers responded that DCC-W does not have a definition of each labor category,
but SAIC could explain the classifications. We then contacted SAIC concerning
definitions for each labor category. SAIC responded:
           . . . SAIC does not have written descriptions that separate the labor
           categories on our GSA MOBIS Contract. SAIC established a broad
           range of categories and rates to allow for flexibility in meeting various
           agency needs on a case-by-case basis. In other cases, SAIC categorizes
           individuals based on a number of factors, including skills and
           experience levels. For example, a more senior individual may be
           proposed as a Principal Management Consultant whereas a less senior
           individual may be proposed as a Management Consultant. . . . SAIC
           does not have an express definition for Management Consultant as that
           term is used under our GSA MOBIS Contract. Nevertheless, SAIC
           considers a Management Consultant as an individual capable of
           providing a wide range of services. . . .




                                         13
The MOBIS schedule that SAIC provided contained services with broad
descriptions such as consultation services, project management services, and
support products. If the service fell within the schedule, SAIC would select the
labor category (for example, Principal Management Consultant) that best fit the
requirement. In the case of two subject matter experts, their labor categories were
selected by SAIC based on the salaries that the subject matter experts negotiated
with ORHA officials prior to the involvement of SAIC.

Of the 18 contracts awarded, 3 provided labor category definitions within GSA
schedules. The logistics schedule for Military Professional Resources,
Incorporated, provided a listing of the different position qualifications for each
level under each labor category. A contracting official could determine what was
being purchased. For example, a Management Consultant III was required to
have a Bachelor’s degree or equivalent and 8 years of general experience while a
Management Consultant IV required a Master’s degree or equivalent and 10 years
of general experience.

        Misuse of Information Technology Schedules and Labor Categories.
DCC-W misused the Information Technology Federal Supply Schedules when
awarding two contracts. In the first contract, DASW01-03-F-0507, DCC-W used
a GSA schedule entitled Information Technology Professional Services to procure
linguist services from MZM, Incorporated. We could not locate documentation
within the contract folder that identified the process for choosing a labor category.
However, the contracting officer explained that the contractor used the GSA
Federal Supply Schedule for its proposal. In our review of that schedule, we
noted that no labor category was listed for linguist services and the Information
Technology title does not indicate that a linguist would fall within the auspices of
the schedule. In the second contract, DASW01-03-F-0397, an Information
Technology Federal Supply Schedule was used to award a contract to Unisys for a
subject matter expert to provide a study of Northern Iraq. We could not locate a
justification for or determine the rationale of how a cultural study relates to an
Information Technology Federal Supply Schedule.

A second linguist contract, DASW-01-03-0677, was awarded to Military
Professional Resources, Incorporated, using its MOBIS Federal Supply Schedule.
The labor category selected for the contract was titled “Education/Training
Analyst.” The description of the labor category did not allude to linguist support
services. A contracting officer at DCC-W stated that he did not review the GSA
contracts prior to awarding a contract. He added that noncompliance of a GSA
schedule is an issue between GSA and the contractor. We believe that DCC-W
should verify the GSA schedules and corresponding labor categories selected by
the contractor and determine that the schedule provides the skills needed to
accomplish the statement of work. Before awarding contracts using the Federal
Supply Schedules, contracting officials must ensure that the appropriate Federal
Supply Schedule is used.




                                     14
Personal Services Contracts
     DCC-W inappropriately awarded 10 personal service contracts. The FAR
     identifies a personal service contract by the employer-employee relationship
     established between the Government and contractor personnel. That happens
     when contractor personnel were under relatively continuous supervision and
     control by a Government officer or a Government employee. The FAR continues
     by stating that when that type of relationship occurs, the Government is normally
     required to obtain its employees by direct hire under competitive appointment or
     other procedures required by the civil service laws. Awarding personal service
     contracts evades the law unless Congress specifically authorized the acquisition
     by statute.

     In addition, the FAR provides descriptive elements that should be used as a guide
     in assessing whether a proposed contract is personal in nature. Those elements
     include:

            •   performance on site;

            •   services applied directly to the integral effort of agencies or an
                organizational subpart in furtherance of assigned function or mission;

            •   inherent nature of the service, or the manner in which it is provided,
                reasonably requires directly or indirectly, Government direction or
                supervision of contractor employees.

     Of the 24 contracts, 10 contained requirements that we believe were for personal
     services. Of the 10 contracts, 7 were awarded to obtain a particular person who
     would work for ORHA personnel. Three contracts were awarded for groups of
     individuals under the direction of ORHA personnel. For example, five of the
     contracts for subject matter experts contained statements of work that similarly
     stated:
                “[Subject Matter Expert] . . . under the direction of the Director,
                ORHA.

     Another statement of work stated,
                . . . the Government will assume management, and                control
                responsibilities for the SMEs [subject matter experts]. . . .

     Personnel could have been hired as Government employees, as some of the top
     ranking members of the ORHA staff were hired. Hiring these individuals as
     Government employees would have also reduced the overall cost to the
     Government for the subject matter experts. Hiring the subject matter experts by
     way of the Federal Supply Schedules caused the Government to pay contractor
     overhead costs for very little added benefit. In short, if DoD had hired the subject
     matter experts as Government employees, the general and administrative costs of
     the prime contractor could have been avoided.



                                             15
    As of October 14, 2003, CPA notified DCC-W to terminate two contracts with the
    subject matter experts so they could be hired as Government employees. For one
    of the contracts, DCC-W contracting officer contended that it was not a personal
    services contract because the contractor personnel performing the statement of
    work had an administrative layer acting as an intermediary with the Government.
    However, the statement of work was clear in that the subject matter expert would
    receive direction from ORHA personnel. As of October 14, 2003, only three
    contracts that we consider personal services were still ongoing, and we believe
    that these contracts should be terminated. If the individuals are still required, they
    should be hired using procedures required by civil service laws or an applicable
    statutory exception using an appropriate contract.


Out-of-Scope Work
    At least 1 of the 24 contracts reviewed had considerable work performed that was
    outside the scope of the contract. Contract DASW01-03-F-0533, the Iraqi Free
    Media contract, was awarded to:
               Provide media development, and production support services and
               training for the Office of Reconstruction and Humanitarian Assistance
               and the Inter-Agency task force. The media team shall quickly
               establish a free and independent indigenous media network consisting
               of radio, television, and print media components to enable the Office of
               Reconstruction and Humanitarian Affairs to communicate with the
               indigenous population in a post-conflict environment in the country of
               Iraq . . . will establish/assist in establishing an initial satellite based
               interconnectivity between/among various Iraqi ministries as these are
               reconstituted using already available systems and capabilities provided
               by the USG [U.S. Government].

    From the original value of $15 million, the contract was modified for about
    $3.1 million as a result of unforeseen necessities of the contractor and DoD.
    Specifically, the contract was modified for security guards and equipment. We
    believe this work was clearly outside the scope of the contract and should not
    have been added to this contract. In addition, ORHA personnel allowed a subject
    matter expert to work on this contract without the approval of the DCC-W
    contracting officer.

            Security Guards. The statement of work for the SAIC Iraqi Free Media
    contract was first developed in March 2003 without a requirement for security
    guards. After the contract was awarded, SAIC submitted a proposal that included
    a security guard allotment. The proposal to add the security guards was not
    incorporated into the statement of work at that time. However, according to one
    of the DCMA officials, the security guards were overseas and working on the
    contract as early as March 21, 2003, before DCC-W contracting officers had
    authorized the security guards. Furthermore, the Assistant Secretary of the Army
    for Logistics did not approve and require DCC-W to place the security guards on
    the Iraqi Free Media contract until April 28, 2003.



                                              16
The Iraqi Free Media contract was awarded within the auspices of the GSA
Federal Supply Schedule MOBIS schedule that SAIC provided. Although that
Federal Supply Schedule contains common commercial business labor categories
that range from consultation services to support services, a security detail did not
correlate to any labor category description within the schedule.

After the contract was awarded, and to complete the established mission within
the post-conflict country of Iraq, ORHA officials asked that DCC-W contract for
a security detail because of the imminent danger the media team was facing.
Furthermore, the ORHA director requested that the security guards be placed in a
required training class approximately 3 weeks before DCC-W approved the
security guards. The training was required to be completed after the personnel
were hired and before deploying overseas.

SAIC corresponded with the DCMA specialist in-theater and explained that the
MOBIS schedule was the appropriate vehicle to purchase security guards. SAIC
had,
           confirmed that SAIC has performed security detail work under the
           MOBIS Schedule.

The above e-mail was then forwarded to the DCMA acquisition specialist in
Washington D.C. who stated:
           . . . Seems they [SAIC] are trying to get you to do what we would not
           agree to do as it is outside the scope of the Media contract. They
           would love for you to award a separate security contract with them, but
           that is outside the GSA MOBIS scope also. . . .

We questioned the contracting officer about the placement of the security guards
on the contract and she responded,
           . . . they [security guards] may be outside the scope of the schedule, but
           not out of scope of the contract. . . .

 The statement of work was eventually revised to include the requirement for the
security guards, and according to the contract modification, was added into the
contract with a $3.1 million modification. However, we could not determine the
cost of the security guards because the security guards were not identified in the
cost breakdown portion of the modification. Furthermore, the contracting officer
did not know the cost for the security guards and the contracting officer contacted
SAIC at our request. SAIC responded that the security guards were incorporated
into the basic contract, not the modification as was indicated by the
documentation. Because of incomplete documentation and a lack of knowledge
of the contracting officer, we could not determine the cost to the Government to
add the security guards.

       Equipment Purchases. The original Iraqi Free Media program manager
requested that specific equipment be purchased or leased under the contract. A
DCMA acquisition specialist explained that the Government purchased and
leased


                                         17
           a H2 Hummer [purchased], a Ford C350 pickup truck [purchased],
           chartered a DC10 cargo jet [leased] to fly all these things over there for
           his personal – or for his [program manager] use on this contract, all
           outside the scope of the contract or the statement of work.

        The DCMA acquisition specialist added that SAIC requested permission
for these items, but that the DCMA specialist refused to allow the items be added
to the contract. SAIC then went around the authority of this acquisition specialist
to a different office within the Under Secretary of Defense for Policy to gain
approval and succeeded.

Neither the contracting office nor the Continental United States (CONUS) point
of contact responsible for signing the invoices could dictate the precise amount of
the equipment charges. We reviewed the signed invoices and could not
specifically identify the charges; however, one category of direct costs titled
“Office & Vehicle,” totaled about $381,000.

        Subject Matter Expert. The main purpose of the Iraqi Free Media
contract was to provide media development and technical support. However,
when a subject matter expert working in Iraq did not receive a contract from the
U.S. Agency for International Development, the Director of ORHA sent a
memorandum to the contracting authorities of the ORHA/CPA in May 2003, that
stated:
           we . . . asked him to join the team by means of the SAIC contract. The
           easiest mechanism available at the time was the Indigenous media
           contract [Iraqi Free Media contract].

       The memorandum continues:
           . . . [The subject matter expert] signed on as a direct hire SAIC
           employee for a period of six months. . . .

The subject matter expert was first placed in charge of determining how to
dispose of garbage in Iraq. He was then assigned the role of Senior Ministry
Advisor for the Ministry of Youth and Sport. Neither of those roles was within
the scope of the Iraqi Free Media contract. The Director of ORHA also stated:
           . . . we anticipate . . . [the subject matter expert] would be used on a
           variety of special projects essentially outside of the Indigenous Media
           contract’s scope of work.

The official continued:
           We anticipated . . . adjustments would be made so that the Indigenous
           media contract is compensated for the work [the subject matter expert]
           has done outside of that contract’s scope of work. . . . One solution
           was and is making contract modifications to permit [the subject matter
           expert] work to continue outside of Indigenous media through
           September as planned. . . .




                                         18
    The contracting officer was not aware that the subject matter expert was
    inappropriately authorized by ORHA on the Iraqi contract until receiving an
    e-mail from one of the DCMA specialists stating:
               Sit down before you read this attachment! I’m still in shock that
               ‘Management’ believes this is okay. I'm not sure what to do . . .
               besides cry.

    The attachment referred to in the above e-mail was the May 2003, memorandum
    quoted above. We questioned the contracting officers about this subject matter
    expert under the Iraqi Free Media contract. They responded that SAIC did
    invoice for this individual, but that the contracting officers sought ratification for
    the amount charged and expected SAIC to refund the Government for the full
    amount.


Price Reasonableness
    We were unable to determine whether DoD paid a fair and reasonable price for
    22 of 24 contracts reviewed. The DCC-W contract files did not contain adequate
    documentation showing that price reasonableness determinations were conducted
    for 17 contracts. Independent Government estimates, technical and cost
    evaluations, and price negotiation memorandums (PNM) were either not prepared
    or not in the contract file. PNMs, when prepared, did not contain enough
    information to conclude that the price was fair and reasonable. Also, the
    government paid additional costs to the contractor in the form of handling fees
    and other fees. In addition, limited competition was conducted for five contracts
    under the Federal Supply Schedules. The FAR requires that contracting officers
    obtain fair and reasonable prices for services and items purchased. The FAR also
    requires that the contracting office maintain contract files that include documents
    such as government estimates, records of negotiations, and justifications and
    approvals.

    The FAR 15.405, “Price Negotiations,” states that the contracting officer provide
    the rationale that supports the negotiation result in the PNM, and FAR
    Subsection 15.406-3, “Documenting the Negotiation,” states that the contracting
    officer shall document in the contract file the principal elements of the negotiated
    agreement. Included in the section is a requirement to document that the price
    paid was fair and reasonable. Other documentation that assists the contracting
    officer with determining whether the price is fair and reasonable is the
    independent Government estimate and the cost and technical evaluation. The
    Government estimate provides an early assessment of the expected cost of
    procurements. The cost and technical evaluation is an assessment of a
    contractor’s cost as well as the contractor’s technical proposal.

    In addition, FAR Section 4.801, “Government Contract Files – General,” states
    that the head of each office performing contracting, contract administration, or
    paying functions shall establish files containing the records of all contractual
    actions. The documentation in these files should be sufficient to constitute a
    complete history of the transaction: providing a complete background as a basis


                                          19
for informed decisions at each step in the acquisition process, supporting actions
taken, providing information for reviews and investigations, and furnishing
essential facts in the event of litigation or congressional inquiries. See
Appendix E for a list of missing documentation.

Reasonable Pricing. The contract files did not contain adequate documentation
that supported whether the prices paid for 22 contracts were fair and reasonable.
The absence of documentation was the result of the urgency in which the
contracts were awarded. Specifically, for at least two subject matter expert
contracts, ORHA officials and the subject matter expert agreed to the salaries
before the requirement was provided to the contracting officials. As mentioned
earlier, the contractor then used a labor category from Federal Supply Schedule
contract that equated to the agreed amount. In other words, the contracting
officer backed into the contract award amount. Whether the amount was fair and
reasonable remains questionable and was largely determined by how well the
ORHA official negotiated with the subject matter expert when the requirement
and salary were established. The contracting officer maintained that the contract
was fair and reasonable because the labor rate was listed in a Federal Supply
Schedule, which is considered fair and reasonable because those rates are based
on competition. Furthermore, the contracting officer explained that
documentation was not necessary. However, the contracting officer still must
determine that the mix of labor categories proposed is fair and reasonable.

Contract DASW01-03-P-0465 was awarded to an American Indian-owned firm
on a sole-source basis for a protocol officer. The requirement for this contract
was generated by ORHA, and according to the contracting officer, the former
ORHA Director specifically identified the individual he wanted. The protocol
officer was a co-worker of the former ORHA Director when both were employed
by the same contractor. To avoid an appearance of or a conflict of interest, the
protocol officer relinquished her employment with the contractor, and was hired
by the American Indian-owned firm.

The contract was negotiated as a time and materials contract for $595 per day, or
$107,100 for labor, with an initial period of performance of 6 months. According
to the PNM located in the file, the rate was negotiated extensively and was in line
with similar efforts. Furthermore, the PNM referenced the cost evaluation and
stated that the evaluator found the proposal acceptable. However, we could not
determine to which similar efforts the PNM referred, and the cost and technical
evaluation the contracting officer referred to in the PNM stated that the labor rate
appeared excessivea clear conflict with the contracting officer’s statement
about the cost and technical evaluation. The contracting officer and the cost and
technical evaluator both stated that the initial proposed rate was negotiated down
to $595 per day. The contract file did not contain a written proposal reflecting the
initial proposed rate (according to the contracting officer and the DCMA
acquisition specialist this was done through the telephone). However, the file did
contain a written proposal for $595 per day. In addition, the cost and technical
evaluation stating that the labor rate appeared excessive was completed one day
before the contract was awarded.

A modification increased the labor rate to $950 per day or approximately
$164,000, in order “to settle the contractor’s claim for an Equitable Adjustment


                                    20
due to the constructive increased level of performance required of the protocol
officer.” The modification was signed because the responsibilities of the protocol
officer increased after she assumed the duties of a lieutenant colonel who had
relocated. The contractor submitted an invoice for about $39,000 and the
Government paid it identifying retroactive payments from June 1 through
September 19, 2003.

We believe the CPA should terminate contract DASW01-03-P-0465 and assign a
military officer capable of performing as the protocol officer. We determined that
if a lieutenant colonel with 26 years of service was performing the job of the
protocol officer, the Government would pay approximately $42,000 for the
6-month period instead of the approximately $164,000 DCC-W awarded for the
protocol services.

Government Estimates and Evaluations. Of the 24 contracts reviewed, 21 did
not have independent Government estimates prepared that could provide evidence
that fair and reasonable prices were paid. DCC-W contracting officers stated that
they did not have confidence that personnel in the ORHA knew how to prepare an
estimate and because of the urgent requirements, did not have time to find
qualified personnel to prepare the estimates. DCC-W did not document this fact
in the contract files. Of the 15 contracts awarded on a sole-source basis, 6 did not
have cost and technical evaluations in the contract file. We could not determine
whether the evaluations were prepared and not placed in the file or not prepared at
all. A DCC-W contracting officer stated that documentation was not in the file
because of the speed with which the requirements were generated and required to
be awarded, and because they did not have adequate personnel to keep up with
filing requirements. She further stated that DCC-W is hiring contractor personnel
on a temporary basis to fully document the contract files.

Price Negotiation Memorandums. The contracting office should prepare the
PNM at the conclusion of negotiations, with the contractor documenting the
rationale for why the price the Government paid is a fair and reasonable price.
The PNMs were either not prepared or not available for four contract files
initially valued at approximately $18.7 million. On three occasions, the audit
team requested the PNMs and DCC-W did not provide the documentation on
three of the four contracts. Accordingly, we could not determine how the
contracting officer determined that the prices were considered fair and reasonable.

We could not determine how the contracting officer obtained a fair and
reasonable price for the Iraqi Free Media contract. We could not locate the PNMs
for the initial contract, valued at $15 million, or the first modification, valued at
$3.1 million. The DCC-W contracting officials did not respond to our requests to
provide the PNMs. The DCAA stated in its report of this contract that the labor
rates used were not fair and reasonable. DCAA reported that profit rates for the
labor categories rose up to 249 percent.

For contract files in which PNMs were prepared, we noted inconsistencies within
the PNMs. For example, 4 of the 14 PNMs, stated:
           The contracting officer deems this price fair and reasonable based on
           the competition obtained and the fact that the rates for contractor
           personnel are from a GSA Federal Supply Schedule.


                                       21
The four contracts were not competed but were awarded on a sole-source basis to
SAIC seeking the services of specific personnel named as subject matter experts.
The contracting officer stated that the rationale was an oversight and that he did
not review all price negotiation memorandums a DCC-W contract specialist
generated. He noted that the contract specialist was capable of producing
sufficient work and he did not have time to thoroughly read each PNM. Of the
14 PNMs, 7 stated that the price was fair and reasonable based on similar efforts.
Neither the PNM nor the contracting officer identified similar efforts. She
commented that the similar efforts occurred in Afghanistan but could not provide
any more specific information.

Short time frames and urgent conditions do not excuse a contracting officer from
obtaining a fair and reasonable price and not documenting these conditions in the
contract files.

Additional Costs. Audits that DCAA performed on two of the contracts showed
that DCC-W paid questionable prices to SAIC. DCAA performed cost-incurred
audits of two contracts DCC-W awarded for ORHA/CPA, valued at
$48.3 million. DCAA determined that the labor rates SAIC used were not
reasonable and recommended to the contracting officer instead that it use an
adjusted wrap rate. Furthermore, DCAA questioned $5.9 million for handling
fees, open market items, and other fees.

        Handling Fees. DCAA determined that SAIC was not complying with
the FAR regarding how it charged a handling fee for open market item purchases.
The FAR Subpart 16.601 allows the contractor to charge material at “other than at
cost” if the materials are normally sold to the general public and in the normal
course of its business. However, DCAA reported that:
           SAIC does not regularly sell the OMIs [Open Market Items] proposed
           on this [as stated in the Iraqi Free Media and Iraq Reconstruction and
           Development Council Reports] contract to the general public;
           therefore, the application of profit to the OMIs [open market items] is
           not compliant with FAR 16.601.

SAIC responded that the handling fee is “a fair and reasonable profit given the
types of purchases, urgency of the effort and influence of the OMIs [Open Market
Items] on the program.”

        Even after DCAA reported that the handling fee was profit to the DCC-W
contracting officer, he allowed SAIC to charge in September 2003 a handling fee
of 3.6 percent on the $51.3 million modification to the Iraqi Free Media time and
materials contract ($36.2 million was materials). As a result, SAIC may obtain
approximately $1.2 million in handling fees for the modification of the Iraqi Free
Media.

We reviewed the eight contracts awarded to SAIC in support of the ORHA/CPA.
Of the eight contracts awarded under a GSA Federal Supply Schedule, six
contracts contained an invoiced handling fee multiplied against reimbursable
costs. Six SAIC proposals similarly stated, “SAIC has included the following
OMIs, [Open Market Items] inclusive of a reasonable handling charge in our


                                        22
pricing.” The proposed amount was then incorporated into the contract with little
or no negotiation. SAIC did not state the exact handling fee percentage within the
proposal or within the cost element breakdown. SAIC mentioned that only the
open market items are “inclusive” of the fee. We determined the handling fee of
4.5 percent after reviewing invoices, submitted by SAIC. As of October 10,
2003, about $635,000 was invoiced as a handling fee. We believe that fee should
be refunded to DoD and be eliminated from future SAIC billings on contracts.

       Other Fees. Of six subject matter expert contracts awarded to SAIC, five
contain administration charges denoted through hourly executive labor categories.
The contracting officer explained that on more than one occasion he tried to
negotiate the ceiling amount of the labor category. The contracting officer further
explained that the contractor would charge hours to the labor categories for any
involvement, for example, payroll or meetings.

        On the price negotiation memorandum for four of these contracts, it states
that:
           The Contracting Officer negotiated with the contractor, SAIC, to
           reduce the number of hours for the Executive Management Consultant
           I in the option periods. . . .

       For only four of these five contracts, the contractor revised its proposal to
decrease the amount for Executive Management Consultant I within the option
periods. However, DCC-W did not exercise option periods for four of the five
contracts. SAIC charged administrative categories of $209.47 per hour for the
Executive Management Consultant I position and $77.84 per hour for the
Management Consultant II position, amounts that are allowed through the Federal
Supply Schedule. SAIC charged the five subject matter expert contracts for
administration charges totaling about $8,600.

Contract DASW01-03-P-0366 was awarded to RONCO Consulting Corporation
which contained an “other direct cost” multiplier of 10 percent. The DCC-W
contracting officer did not know the purpose of the other direct cost multiplier or
why RONCO received it. As of August 31, 2003, RONCO invoiced about
$8,900 as the other direct cost multiplier, 4-percent of its total invoices. We
believe that the cost multiplier is a superfluous fee and should not have been
included in the contract.

Limited Competition. DCC-W did not obtain adequate competition for five
contracts awarded for supplies and information technology services. Four
contracts were awarded using GSA Federal Supply Schedules and one contract
was awarded using a National Institutes of Health Schedule. Of the five
contracts, two contracts were based on three quotes and three contracts were
based on four quotes. The contracting officer selected the companies for
consideration based on his personal knowledge of whether the contractor could
meet the short delivery time required to meet the ORHA schedule. Although
contracts were awarded to the contractors offering the lowest bid (of the limited
competition), we cannot conclude whether the prices paid were fair and
reasonable because the pool of potential contractors was limited based on the
contracting officers personal experiences. The supplies that were purchased were


                                      23
     common and many vendors have the ability to supply the Government the
     required goods or services. For example, printers, desktop computers, and
     laptops were purchased. Reviewing quotes from more companies for these
     contracts may have resulted in lower prices. Furthermore, the FAR intends for as
     many quotes as practical be reviewed, not just three.


Surveillance
     Of the 24 contracts, 13 did not have adequate surveillance of contractors. Also,
     those assigned to perform surveillance were not trained and provided no
     assurance that the Government was getting what it paid for. According to FAR
     Section 16.601(b)(1), a time and materials contract provides no positive profit
     incentive to the contractor for cost control or labor efficiency. Therefore,
     appropriate Government surveillance of contractor performance is required to
     give reasonable assurance that efficient methods and effective cost controls are
     being used. Of the 24 contracts reviewed, 14 were time and materials contracts.
     The remaining 10 contracts were firm-fixed price contracts.

     The “DCC-W Acquisition Guide” states that the contracting officer’s
     representative (COR) is the requiring activity’s technical expert and is responsible
     for monitoring the performance of the contract. COR duties usually include
     receiving the briefings and deliverables, signing the receiving reports, and
     monitoring contractor performance to protect the Government’s interest. The
     contracting officer appoints the COR at the time of award. The COR must
     possess the qualifications and experience equivalent to the duties assigned.

     The designation of the COR is ordinarily made for the life of the contract, and the
     COR must have enough scheduled time remaining with the activity to serve as the
     COR at least through the base period of the contract. In addition, the COR is
     required to maintain adequate records to sufficiently describe the performance of
     duties as a COR during the life of the contract. For the contracts reviewed,
     DCC-W stated that points of contact were assigned instead of CORs. Points of
     contact provided the same type of surveillance as if a COR were assigned.
     According to a contracting officer, DCC-W assigns a point of contact for all
     contracts using the GSA Federal Supply Schedule and simplified acquisition
     procedures because CORs must undergo 20 to 40 hours of training. Because
     DCC-W awards many contracts using the GSA Federal Supply Schedule and
     simplified acquisition procedures, having a large number of individuals receive
     the required training is difficult. As a result, DCC-W uses the term point of
     contact, and the assigned point of contact provides the surveillance.

     Of the 24 contracts reviewed, 13 were assigned both a CONUS and an in-theater
     point of contact, 8 were assigned only a CONUS point of contact (all of which did
     not require an in-theater point of contact), and 1 had neither a CONUS nor
     in-theater point of contact listed in the contract. Furthermore, we could not
     determine whether 2 other contracts had points of contact assigned. According to
     a DCC-W contracting officer, a CONUS and an in-theater points of contact
     should have been assigned to each contract to ensure that proper surveillance was
     being conducted. The contracting officer stated that the point of contact names


                                         24
for the contracts came from the ORHA/CPA rear office and that DCC-W had
nothing to do with these selections.

CONUS Surveillance. We contacted either the in-theater point of contact or the
CONUS point of contact for seven of eight contracts that purchased supplies to
ensure that the equipment had been received. As of October 30, 2003, we
received confirmation that equipment was delivered for all eight contracts, with
minor discrepancies. Of the 16 remaining contracts, 1 did not have an in-theater
or CONUS point of contact listed; therefore, we could not determine whether the
services were rendered. Another contract had a CONUS point of contact, but we
were unable to determine whether the services were rendered. For the remaining
14 contracts, 2 individuals in the ORHA/CPA rear office received and approved
the invoices. The individual that received and approved 13 of the 14 contracts did
not have contracting background, did not monitor contractor performance, and did
not receive any training relating to performing contractor surveillance.

The CONUS point of contact that approved the 13 of 14 contracts stated he
approved the invoices when he received verbal confirmation that the contract was
going well but did not trace the invoices to the labor rates listed in the contract.
In addition, the CONUS point of contact was unaware of the material allocations
under the direct cost portions of the invoices and did not consistently verify how
these costs were applicable to the contracts. For example, SAIC invoiced
approximately $7 million for one allocation as of August 15, 2003. The CONUS
point of contact approved and signed the invoices without verifying whether the
Government received the material.

Contract deliverables did not come to the contracting office but were to be sent to
the one CONUS point of contact assigned 13 of the 14 contracts. However, the
individual stated that he did not receive the contract deliverables unless the
contractor sent them to him specifically. All of the 14 contracts had some type of
deliverable requirement, but he received only contract deliverables for one of the
contracts.

According to a DCC-W contracting officer, the Defense Finance and Accounting
Service would compare the invoices received to the contract and would pay only
what the contract stated. In reviewing the invoices received from the ORHA/CPA
rear office, one contract billed more than what was allowable under various labor
categories before the modifications were implemented increasing the labor
category ceiling.

For example, SAIC invoiced about 250 hours more than the ceiling for one labor
category within the base period. However, when a modification was awarded that
extended the period of performance and increased this labor category ceiling,
SAIC was then within the labor category allotment. Another contractor had
employees who worked more than what was allowable under the labor categories
of its contract, but according to the contractor, did not plan to bill for the overages
until DCC-W approved a contract modification.

Furthermore, SAIC also worked “unbillable hours” for this contract, whereas the
labor categories were not incorporated into the original contract, but individuals
were actively working. SAIC explained that it would invoice for these labor


                                      25
categories once the contract was modified to incorporate the additional labor
categories. However, we reviewed invoices submitted by SAIC between
September 13, 2003, and October 10, 2003, for this contract and noted that SAIC
invoiced for the referenced labor categories, totaling about $191,000. The
contracting officer explained on October 28, 2003, that a modification was
currently being processed, but no new labor categories were added to the contract.
Accordingly, SAIC invoiced about $191,000 for unauthorized labor categories.
For each of the contracts there was no indication that ORHA/CPA personnel
knew that the contractor was approaching the ceiling for the various labor
categories.

In-Theater Surveillance. Problems also existed with the in-theater points of
contact. A DCC-W contracting officer stated that points of contact did not want
the responsibility of providing surveillance over the contracts, and once in
Baghdad, Iraq, many of the individuals could not be located. To determine the
level of involvement on 11 contracts requiring an in-theater point of contact, we
asked an auditor of the IG DoD staff located in Baghdad, Iraq, to perform a
review.

Of the 9 points of contact assigned to the 11 contracts, the auditor could not locate
any of the points of contact. The auditor discovered that the nine in-theater points
of contact were no longer in Baghdad, Iraq, or performing as the point of contact.
We could not determine whether the contracting officer assigned new in-theater
points of contact for the 11 contracts. DCC-W contracts were not receiving the
necessary surveillance on the time and materials contracts as required by the
FAR.

Reassigning CONUS Points of Contact. In addition, the DCC-W contracting
officers did not reassign the CONUS point of contact. For example, we e-mailed
the CONUS point of contact listed for one of our contracts and were informed by
him that he was no longer the point of contact. He stated that he had no
responsibilities for this contract, such as receiving and signing invoices, and had
no files regarding the contract. The point of contact simply conducted
administrative aspects of this contract. He provided a name of the new CONUS
point of contact. When we contacted that individual, he informed us that he had
not received any invoices for the contract but was aware that DCC-W exercised
two option periods. In reviewing the contract file at the DCC-W contract office,
we did not find a modification changing the point of contact. When asked, the
DCC-W contracting officer was unaware of the change. The DCC-W contracting
officers should require that the point of contact provide monthly status reports of
these contracts.

Need for Contract Surveillance. The following three contracts are examples of
why contract surveillance is necessary for all contracts. To protect the
Government’s interest, appropriate and adequate contract surveillance must be
conducted.

       •   DCC-W awarded contract DASW01-03-F-0533 to SAIC for
           establishing the Iraqi Free Media Program. Although the contract had
           an assigned in-theater point of contact, the lack of surveillance was a
           serious issue. The DCMA acquisition specialist noted that


                                     26
    expenditures were adding up much faster than the funds available and
    no one was providing any oversight for SAIC effort. At the beginning
    of the Iraqi Free Media contract, SAIC had excessive purchases and
    had deployed personnel into the theater without informing the proper
    individuals. At the time, the Government was unsure of what SAIC
    would be doing because SAIC had not submitted its proposal; SAIC
    started the contract with a verbal confirmation from the contracting
    officer. The in-theater point of contact was located in Kuwait and was
    not participating in the surveillance of this contract. To correct this
    situation, the DCC-W contracting officer assigned a new in-theater
    point of contact.

    On August 8, 2003, the acting CONUS point of contact submitted a
    letter to the DCC-W contracting officer stating that he had been unable
    to verify the information submitted in an invoice by SAIC for
    approximately $10 million. However, he signed this invoice on
    July 14, 2003, “subject to audit and review at a later date.”

    In addition, a July 2003 DCAA report stated that most employees and
    subcontracted labor personnel working in-country on this contract did
    not personally prepare daily or weekly timesheets. The DCAA review
    indicated that the labor hours recorded in the contractor’s books and
    billed to the Government may not be accurate. In an in-country review
    of 25 employees, DCAA reported that none of the 25 employees had
    prepared timecards or had any technical instructions for recording
    their time. DCAA identified the above instance as a significant
    internal control deficiency of the contractor.

•   DCC-W awarded contract DASW01-03-F-0508 to SAIC for
    establishing the Iraq Reconstruction and Development Council.
    Section 5.5 of that contract states that, “the Government shall assume
    all responsibility for the management and control of the SME’s
    [subject matter experts] while working under this contract.”
    According to a July 2003 DCAA report, the subject matter experts
    working in-country on this contract did not personally prepare daily or
    weekly timesheets. No systematic process existed for recording and
    reporting of employee time. SAIC informed DCAA that they do not
    monitor the comings and goings of the subject matter experts and that
    tracking of subject matter experts is a function solely belonging to the
    Government. During interviews conducted with the subject matter
    experts on this contract, DCAA found that individuals filled out and
    signed invoices in the United States before departing for Iraq. The
    acting CONUS point of contact then certified these invoices through
    contact with the Iraqi Reconstruction and Development Council
    Baghdad office, which performed the surveillance function for this
    contract and was run by SAIC personnel.
    According to the CONUS point of contact, the contract needs more
    administrative supervision at the Baghdad ORHA/CPA front office.
    The CONUS point of contact stated that no one in the Government
    checks the hours individuals worked under this contract unless
    someone files a complaint.

                             27
           •   DCC-W awarded contract DASW01-03-F-0397 to Unisys Corporation
               for a subject matter expert on the Kurds. The subject matter expert
               would be a project coordinator for classified projects in Northern Iraq
               and was required to submit his contract deliverables to the Coordinator
               of the Northern Region, who was a Government employee. When the
               CONUS point of contact received an invoice for the services of this
               subject matter expert, the CONUS point of contact contacted the
               Government employee in charge to inform him of his authorization of
               payment. The CONUS point of contact received notification that as of
               June 12, 2003, the Government employee was no longer in Iraq and
               that the subject matter expert was now the Coordinator of the Northern
               Region, previously a Government position with added responsibility.

               On August 24, 2003, DCC-W exercised the first option of the subject
               matter expert firm-fixed price contract, which extended it to
               November 23, 2003. The Government terminated this contract and
               hired him through a special appointment on October 7, 2003. Because
               the subject matter expert was the Coordinator of the Northern Region
               while employed by Unisys, the subject matter expert was operating as
               a Government employee for approximately 4 months.


Conclusion
    Our review of the ORHA/CPA and DCC-W handling of 22 of the 24 contracts has
    disclosed significant weaknesses. In each phase of the acquisition process,
    ORHA/CPA and DCC-W cut corners from generating the initial requirement to
    surveillance of the contractor. Many of the problems can be attributed to the
    post-conflict turmoil and the need to react quickly. However, a larger
    contributing factor was the lack of planning for and emphasis on the need for
    acquisition support. The need for acquisition support was more of an afterthought
    than a key function necessary to accomplish the mission. Such a lack of planning
    resulted in:
           •   no staffing assigned to assist in developing requirements,

           •   avoiding FAR procedures in order to award contracts to specific
               people,

           •   using the Federal Supply Schedules improperly,

           •   allowing out-of-scope procurements,

           •   documenting the contract files inadequately,

           •   purchasing goods and services without assurance of fair and
               reasonable prices, and

           •   little or no surveillance on time and materials contracts.



                                         28
    Overall, the above problems did not result from Government personnel desiring to
    make personal gains. To the contrary, personnel involved in these contracts had a
    common interest and performed whatever tasks were needed to accomplish the
    job. The contracting officers did not make good faith efforts to document or
    ensure that the Government’s interest was adequately protected. The contracting
    officers have a responsibility to ensure that the FAR was followed. We recognize
    that the contracting officers were in a difficult position of attempting to serve
    their customers. However, we believe that it was incumbent upon the contracting
    officers to not short cut the acquisition process. Accordingly, we believe that
    DCC-W should initiate a review and take appropriate administrative action
    against the contracting officers that did not follow appropriate FAR and GSA
    Federal Supply Schedule procedures.


Management Comments on the Finding and Audit Response
    DCC-W Comments. The Commander, DCC-W acknowledged that shortcuts
    were taken by his office. The commander also stated that the draft report
    represented a serious injustice to the personnel in his command, was riddled with
    faulty assumptions, erroneous conclusions, and egregious misinterpretation of
    contract law and procedures and requested that the report be withdrawn in its
    entirety. He further stated that based on the findings and recommendations of the
    draft report, if practiced during the critical time periods addressed, that his
    contracting officials would have failed to provide the urgently needed supplies
    and services to ORHA and CPA. The draft report failed to recognize the critical
    and time sensitive nature of the awarding these contracts and the flexibility
    allowed under the FAR.

    Audit Response. We disagree with the commander that the report is riddled with
    faulty assumptions, misinterpretation of contract law and procedures. In our
    opinion, the contracting officers did not adequately document required
    information in the contract files, misused the GSA Federal Supply Schedules,
    awarded personal service contracts, and did not ensure that contracts, once
    awarded, were properly monitored by Government representatives. For example,
    contracting officials did not adequately support that the prices paid were fair and
    reasonable, which is required by the FAR. In addition, DCC-W misused the
    flexibility offered by the GSA Federal Supply Schedules. Contracting officials
    used Information Technology Federal Supply Schedules to hire consultants and
    interpreters, used a MOBIS Federal Supply Schedule to hire specific personnel
    and buy services that were not on the respective schedules. Furthermore,
    approximately 71-percent of the total cost of the Iraqi Media contract
    ($82.3 million) was for material, not consultants (which is the intended purpose of
    the MOBIS schedule). DCC-W contracting officials inappropriately awarded
    personal service contracts, which are not allowed without special permission.
    The DCC-W contracting officials also did not ensure that the contracts were
    properly monitored in Iraq.

    We did recognize the urgent conditions under which DCC-W awarded the
    contracts and did not question the use of the exception of urgency to non-
    competitively award most of the contracts. However, urgency does not permit the


                                        29
    contracting officers to abandon the rules. Contracting officers are responsible for
    ensuring that all requirements are met prior to awarding contracts, even under
    urgent conditions. If the commander believed that the contracting officers could
    not have awarded the contracts in accordance with the FAR under the urgent
    circumstances that existed at that time, he should have assigned additional
    resources to the tasks.


Recommendations, Management Comments, and Audit
  Response
    Revised and Redirected Recommendation. We revised and redirected
    Recommendation 1. based on comments received from the Office of the Under
    Secretary of Defense for Policy. Recommendation 1. was redirected to the
    Deputy Secretary of Defense and was sent to him under separate correspondence
    from the Inspector General.

    1. We recommend that the Deputy Secretary of Defense designate an office
    within the Department of Defense to study existing DoD post-war strategy
    and establish responsibilities, policies, and procedures for the rapid
    acquisition of necessary goods and services in support of any future post-war
    occupation or relief operations.

    2. We recommend that the Commander, Defense Contracting Command-
    Washington:

              a. Analyze the seven ongoing contracts for subject matter experts
    and determine the liability to the Government if the contracts are
    terminated. For contracts having no or limited liability to the Government
    terminate immediately. Terminate all contracts at the end of current
    contract period.

    Management Comments. The Commander, DCC-W concurred in part, stating
    that all contracts for subject matter experts were completed as of December 31,
    2003. As a result, no contracts were required to be terminated. The commander
    stated that DCC-W contracting officers did not avoid FAR procedures in
    awarding contracts to specific people and that the contracts awarded for the
    subject matter experts were not necessarily personal service contracts, although
    some of the contract language was imprecise, it was never the intent of the
    contracting officer to award personal service contracts. Furthermore, the
    commander stated that DCC-W had no knowledge that the contracts were actually
    administered as personal service contracts and that the subject matter experts
    were all hired as subcontractors, however, the Government did provide quality
    assurance and oversight.

    Audit Response. According to FAR Section 2.101(b), “Definitions,” a personal
    services contract means a contract that, by its express terms or as administered,
    makes the contractor personnel appear to be, in effect, Government employees.
    FAR Section 37.104(a), “Personal Services Contracts,” continues by stating that a
    personal services contract is characterized by the employer-employee relationship


                                        30
it creates between the Government and the contractor’s personnel. FAR Section
37.104(d) provides a list of descriptive elements that should be used as a guide in
assessing whether or not a proposed contract is personal in nature.

In our opinion, based on the FAR and the information that was provided by the
DCC-W contracting officers (and other individuals involved with these contracts),
10 of the 24 contracts reviewed were personal services contracts. We based this
determination on the objectives and work requirements listed in the Statements of
Work for the 10 contracts. The statement of work identified the work to be
performed under the contract, and the statements of work clearly identified an
employer-employee relationship between the Government and the subject matter
expert. Although the acquisitions had to be completed quickly, it was still the
DCC-W contracting officers responsibility to assess the statements of work,
ensure that the contracts were not personal service contracts, and rewrite or
require that the statements of work be rewritten. None of these actions were
accomplished. In addition, we did discuss the use of some of the subject matter
experts with an in-theater point of contact and confirmed that at least one contract
was under the direct supervision of the Government. We agree that DCC-W did
not know that the contracts were administered as personal services because the
contracting officials did not ensure that the contracts were properly monitored.
DCC-W contracting officials could not provide us current information on who, in
Iraq, was actually monitoring the contractors. Many of the personnel assigned to
monitor the contractors by the DCC-W contract officers were not in Iraq for the
full term of the contract and DCC-W did not reassign a point of contact.

           b. Complete the documentation of contracts awarded for the
Office of Reconstruction and Humanitarian Assistance/Coalition Provisional
Authority required by the Federal Acquisition Regulations and ensure that
each future contract is awarded in accordance to applicable regulations and
that all contract documentation is prepared.

Management Comments. The Commander, DCC-W concurred but noted that
the documentation will be less than comprehensive because some documentation
will be difficult or impossible to reconstruct. In addition, the commander stated
that the audit had a narrow view and interpretation of the FAR, Defense FAR
Supplement, and Army FAR Supplement requirements without consideration of
the flexibility those regulations are intended to provide the contracting officer.
The commander also stated that the review was looking for documentation
generally required only in FAR Part 15 contracts such as price negotiation
memorandums. Furthermore, only 2 of the 24 contracts were awarded under
provisions of FAR Part 15, but that most of the contracts were established under
the requirements of FAR Part 8 which are more abbreviated over that required by
FAR Part 15.

Audit Response. The contracting officer is responsible for maintaining a
complete, auditable contract file and that was not done. According to FAR
Section 4.801(b), “Government Contract Files – General,” the documentation in
the files shall be sufficient to constitute a complete history of the transaction.
DCC-W contracting officers were not in compliance with this regulation.
Although not specifically stated in FAR Part 8, the contracting officer still must
make a determination of a fair and reasonable price. Furthermore, the contracting


                                    31
officers use of the flexibility provided by using Federal Supply Schedules goes
well beyond what was envisioned in FAR Part 8. In fact, to claim that FAR Part 8
was even followed when purchases were made from the Federal Supply
Schedules is using the FAR flexibility to the maximum. FAR 4.803(a), “Contents
of Contract Files,” lists government estimates and records of price reasonableness
as several types of documentation that make a contract file sufficient to constitute
a complete history of the transaction.

           c. Obtain refunds from overpayments made to the contractor on
contracts DASW01-03-F-0533 and DASW01-03-F-0516 for the subject
matter experts and all SAIC contacts containing material handling fees in
the amount of $634,834.34. The following, are material handling fees SAIC
billed the Government for specific contracts.

           Contract DASW01-03-F-0533          $454,637.43
           Contract DASW01-03-F-0508           178,892.46
           Contract DASW01-03-F-0537               718.04
           Contract DASW01-03-F-0536               302.54
           Contract DASW01-03-F-0512               200.42
           Contract DASW01-03-F-0500                83.45

Management Comments. The Commander, DCC-W concurred with seeking
refunds of material handling fees to the extent that these fees included
unauthorized profits. The commander nonconcurred with obtaining
overpayments for the subject matter experts. And stated that there was no legal
basis to determine whether subject matter experts were overpaid.

The commander stated that the subject matter experts were paid in accordance
with the labor rates established in the GSA Federal Supply Schedules, which had
previously been determined to be fair and reasonable under the GSA process. In
addition, the commander disagreed that DCC-W did not obtain adequate
competition on five contracts awarded for supplies and information technology
services. The commander stated that DCC-W complied with the FAR and DFAR
requirements of reviewing GSA Federal Supply Schedule pricing of three vendors
and nothing more was required, especially in light of the urgency of the
requirements.

Audit Response. The amounts identified in the recommendation were the actual
amounts billed by SAIC on its invoices (through October 10, 2003). The amount
DCAA identified was based on the total dollar amount of the “Open Market
Items” listed contract. As a result, DCC-W should determine whether SAIC
applied the material handling fee on additional invoices that have been submitted.

We disagree with the statement that there was no legal basis to determine whether
subject matter experts were overpaid. For one of the subject matter experts, we
recommended that DCC-W determine whether the Government continued to pay
the contractor for the subject matter expert after his mission was completed. The
period of performance and invoices were through September 12, 2003, however,
e-mails indicated that the subject matter expert competed his duties in July 2003.
The intent of the recommendation was for DCC-W to ensure that if the subject
matter expert completed assigned tasks in July 2003, that the Government still did


                                    32
not pay for his services up until September 12, 2003. We believe there is a legal
basis for DCC-W to accomplish this recommendation. The second subject matter
expert recognized in the recommendation referred to was possibly paid through
the Iraqi Free Media contract but was performing work clearly outside the scope
of the contract, performing duties such as garbage disposal and youth sports in
Iraq. There were indications that this individual was paid under the Iraqi Free
Media contract and the intent of the recommendation was to recover inappropriate
payments. See the audit response to Recommendation 2.d. for more information
regarding this subject matter expert.

Although DCC-W stated that labor rates in the GSA Federal Supply Schedules
are determined to be fair and reasonable, an October 2002 memo from the DCC-
W legal office to the commander expressed concern that in many instances the
labor rates appear to be extremely high for services provided and that once the
rates are accepted by the GSA, that rates are impervious to market forces.
Regarding the purchases of supplies and equipment using GSA Federal Supply
Schedules, DCC-W correctly stated that it conformed to regulations and sought
the required number of contractors prior to awarding contracts. We were
concerned that the contracting officer only sought bids from contractors he knew,
and had experience dealing with, which in effect, limited competition.
Furthermore, the items bought were common computer peripheral equipment,
therefore researching other contractors’ prices through the GSA Advantage! on-
line shopping service would not have affected the urgency of the procurements.

We request that the commander provide additional comments on the need to
collect for overpayments for two subject matter experts.

            d. Issue guidance requiring the use of Federal Supply Schedules
for its intended purposes. Ensure that contracting officers verify that goods
or services purchased are within the scope of the Federal Supply Schedule
and that labor categories purchased from the Federal Supply Schedules
reflect the service performed.

Management Comments. The Commander, DCC-W concurred and stated that
DCC-W established and published a “Guide for Ordering Services Exceeding
$100,000 from GSA Federal Supply Schedules,” in March 2003. The entire
DCC-W workforce received training in April 2003 to emphasize verifying the
intended purpose of the schedules by reviewing the GSA Federal Supply
Schedule contracts before issuing a schedule order along with verification that
appropriate labor categories are used. Additional sessions to reinforce this
training are currently planned for Spring 2004. Furthermore, contracting officers
will be trained by April 2004 regarding scope of contract.

The commander disagreed that the labor categories were too broad or ill defined,
and stated that this was beyond the responsibility of DCC-W as it must conform
to the parameters of the contracts. Furthermore, labor rates under the Federal
Supply Schedules have been accepted as reasonable by GSA and that there was
nothing improper in having the vendors provide details of the GSA schedules,
which is a widely used practice throughout DoD.




                                    33
The commander also disagreed that adding a security requirement to the Iraqi
Free Media Contract was not out of scope but that it was an integral requirement
for successful completion of the contract. The commander disagreed that the
subject matter expert that was improperly placed on the Iraqi Free Media contract
was actually paid. The contracting officer directed the contractor to remove all
costs for the subject matter expert from the contract. The contractor was told the
only means for reimbursement was to file a claim under ratification procedures,
and as of January 2004 no claim had been filed.

Audit Response. We agree that there is nothing improper in having the vendors
provide details of their GSA schedules. What we are questioning is the fact that
the contractors are selecting the GSA schedules and the labor categories for the
contracts and the contracting officers are not validating that information. When
asked about the GSA Federal Supply Schedules, the contracting officers informed
us that they do not receive a copy of or review the GSA schedules nor do they
verify the selected labor categories. Had DCC-W reviewed the schedules, the
contracting officers may have determined that using Information Technology
GSA schedules for consultants and linguists was not appropriate. In addition, the
Inspector General for GSA recently issued an audit report that cited numerous
violations by DoD for misusing Information Technology GSA schedules.

Furthermore, DCC-W used the GSA schedule to “back” into salaries for subject
matter experts based on agreed amounts with the subject matter expert. Instead of
identifying a particular labor category to fulfill the requirement, as is usually
done, DCC-W contracting personnel identified a particular person and a salary
amount and then determined which labor category best fit the salary.

The contracting officer has a duty to determine whether prices are fair and
reasonable and we found no evidence that this was done. The contracting officers
unorthodox use of the Federal Supply Schedules make a determination of fair and
reasonable pricing that much more important. Specifically, the contracting officer
agreed to a price with the individual or contractor before going to the Federal
Supply Schedules. Accordingly, the prices in the schedules bore no relationship
to what was being performed or paid for the services. The schedules were only a
vehicle to award the contract. Using the schedules resulted in overhead costs that
could have been avoided if the services were acquired directly from the subject
matter experts.

We believe that that DCC-W contracting officers used an inappropriate
contracting method to obtain security for the Iraqi Free Media contract. One of
the DCMA acquisition specialists in Iraq sent an email to the acquisition
specialist in Washington D.C., warning that SAIC was performing security
functions outside the scope of the contract. Because of a lack of documentation in
the DCC-W contract file, we could not determine the cost of the security guard
requirement. The only information regarding the cost of the security detail was a
proposal from SAIC for “Security Team Equipment and Materials,” totaling
approximately $433,000, but contained no further information. The most accurate
information we have been able to obtain from DCC-W regarding the amount for
the security was in its comments to the draft report that stated, “The costs for this
were not substantial when compared to the overall costs of the contract.” Using
the GSA Federal Supply Schedule titled, “Management, Organizational, and


                                     34
Business Improvement Services” was out of scope for hiring security guards. A
separate contract for security guards should have been awarded to a company
specializing in security guard services.

We disagree with the statement from the commander that the subject matter
expert was not paid for on the Iraqi Free Media Contract. Because of a lack of
documentation in the contract file, we relied on the contracting officer’s statement
that the subject matter expert working out of scope on the Iraqi Free Media
contract was paid. Furthermore, we determined that the government paid for the
labor category that this individual was employed (as reported by the DCAA) as of
a May 23, 2003, invoice. The labor category, Principal Management Consultant
II was billed by SAIC for 6,529.5 hours (for the period of performance from
inception of the contract until May 23, 2003), which was 876.5 hours over the
ceiling for this labor category at that time. The next invoice adjusted the same
labor category by 876.5 less hours to adjust it back to the ceiling. However, there
was no additional documentation explaining the excess for the labor category or
no documentation explaining why the Government paid the amount (including the
excess 876.5 hours). Furthermore, there was no documentation showing that the
hours adjusted were those of the subject matter expert working out of scope. The
invoices we reviewed showed that the SAIC invoiced the Government for the
Principal Management Consultant II labor category.

          e. Assign trained points of contact or contracting officer
representatives to each ongoing contract that supports the Iraqi effort and
ensure that the contracting officer obtains monthly reports from the
contracting officer representative or the point of contact of each contract.

Management Comments. The Commander, DCC-W concurred and stated that
DCC-W will work with requiring activities to establish better oversight practices.

           f. Perform a review and initiate appropriate administrative action
for the contracting officers who willingly made improper interpretations of
and circumvented the Federal Acquisition Regulation and misused the
General Services Administration Federal Supply Schedules.

Management Comments. DCC-W nonconcurred with the recommendation.
The commander stated the report highlighted a number of weak areas and short
cuts taken by DCC-W contracting officers. He further stated that the DCC-W
staff will make a thorough review of the contract files cited in the report, and
would revise policies and guidelines, improve business processes, and conduct
training of the acquisition workforce. However, the commander stated that DCC-
W emphatically objected to the statement in the report that the contracting
officers “willingly” made improper interpretations of and circumvented the FAR
and misused the GSA Federal Supply Schedules. The commander further stated
that there was no evidence known to him of any bad faith, willful misconduct, or
illegal activities by DCC-W employees.

Audit Response. The DCC-W contracting officers were under unique and trying
circumstances in awarding these contracts and the report did not take exception to
the use of compelling urgency to award the contracts. However, we do believe
that DCC-W contracting officers inappropriately used the GSA Federal Supply


                                    35
Schedules and the contracting officers knew they were making liberal
interpretations of the FAR requirements.

Although a lack of planning for acquisition support was a major factor in creating
the problems noted in this report, we believe that the contracting officers had a
key role and should have acted appropriately. Specifically, it was well within the
contracting officers rights to take no action on the procurements until the
requirements were known and justified, a reasonable contracting approach, and a
fair and reasonable price ascertained. As a minimum, the contracting officer
could have elevated the concerns they shared with each other in e-mails to higher
command levels. We found no evidence of contracting officers seeking
assistance from higher levels. Instead, we found evidence that the contracting
officers wanted to assist their customer while knowing that their actions were not
consistent with regulations. The contracting officer must protect the
Government’s best interest.

One contracting officer acknowledged that hiring the security guards for the Iraqi
Free Media contract was out of scope of using the GSA schedules but did so
because it was within scope of the contract (in the contracting officer’s opinion).
A second contracting officer inappropriately sent SAIC a Government cost
estimate for a modification to the Iraqi Free Media contract while the
modification was still being processed. In the e-mail, referring to the Iraqi Free
Media contract, the contracting officer provided the SAIC point of contact a
string of e-mails that included other e-mails between the DCMA specialist and
ORHA rear-office personnel discussing the independent government estimate for
a modification increasing the Iraqi Free Media contract and the lack of
Government surveillance over the contract. The contracting officer then told the
SAIC point of contact:
           This one may be coming to a head!

           Disregard message after reading.

It was inappropriate for a contracting officer to communicate this information to
the contractor.

The recent issuance of a GSA Inspector General audit report, “Audit of Federal
Technology Service’s Client Support Centers,” January 8, 2004 regarding the
misuse of information technology service schedules, and found similar conditions
to what we found and further supports the need for the recommendation. After
the contracting files are reviewed, the commander can then make an informed
decision on whether any administrative action is warranted. Accordingly, we
request the Commander, DCC-W to provide additional comments on the
recommendation.




                                        36
Appendix A. Scope and Methodology
   This audit was performed as a result of a June 10, 2003, memorandum to the
   Inspector General of the Department of Defense from the Director DCAA. The
   memorandum recommended a review of contracts DCC-W or Washington
   Headquarters Service awarded in support of the rebuilding Iraq by the
   ORHA/CPA. As a result, we reviewed 24 contracts valued at $122.5 million.
   The contracts were awarded between February 2003 and August 2003. Of the
   contracts reviewed, 15 were awarded on a sole-source basis and 9 were awarded
   based on competition. In addition, 16 contracts were for services and 8 were for
   supplies or computer equipment. See Appendix C for details.

   We examined the contracting procedures DCC-W officials used in awarding the
   contracts for the ORHA/CPA. Specifically, we reviewed documentation that
   supported the requirements determinations, types of contracts used, use of other
   than full-and-open competition, and determinations of price reasonableness.

   During our audit, we visited the DCC-W contracting office and the ORHA/CPA
   rear office. We interviewed DCC-W contracting personnel involved in awarding
   and modifying the contracts. We also interviewed ORHA/CPA rear office
   personnel responsible for receiving and processing invoices and key Government
   and contractor personnel involved with either the contract requirement, contract
   award process, or contract surveillance. In addition, we performed work located
   in Baghdad, Iraq, to determine the level of surveillance conducted on the
   contracts.

   We reviewed the contract files that DCAA used in conducting its analysis, the
   official contract files DCC-W maintained, and DCAA audit reports for 2 of
   24 contracts. In addition, we reviewed e-mails, PNMs, Federal Supply Schedules,
   justifications for other than full-and-open competition, cost and technical
   evaluations, Government estimates (when available), and contract modifications.
   We also conducted an analysis of invoices prepared through October 10, 2003, for
   15 of 24 contracts.

   We performed this audit from July 2003 through December 2003 in accordance
   with generally accepted government auditing standards. Our scope was limited in
   that we did not review the DCC-W management control program because that
   was not an announced objective. We also did not review contracts the
   Washington Headquarter Services awarded because their dollar value was low
   and the contracts were less significant than those DCC-W awarded.

   Use of Computer-Processed Data. We did not rely on computer-processed data.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the Department of Defense. This report
   provides coverage of the high-risk area to “Improve processes and controls to
   reduce contract risk.”




                                       37
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense (IG
    DoD) and the Defense Contract Audit Agency (DCAA) have issued three reports
    each related to this subject. The Inspector General, U.S. Agency for International
    Development has issued three memorandums addressing contracting for Iraq.
    Also, the Inspector General of the General Services Administration has issued
    two reports addressing using Federal Supply Schedules.


IG DoD
    IG DoD Report No. D-2004-015, “Contracts for Professional, Administrative, and
    Management Support Services,” October 30, 2003

    IG DoD Report No. D-2003-029, “Contract Actions Awarded to Small Business,”
    November 25, 2002

    IG DoD Report No. D-2001-129, “Contracting Officer Determinations of Price
    Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001


DCAA
    DCAA Report No. 4171-2003B28000007, “Report on Application of Agreed-
    Upon Procedures to SAIC Proposal No. 01-1792-71-2004-413-R1 Exercise of
    Option Period 2 – Under GS-23F-8006H/DASW01-03-F-0533 Iraqi Media
    Network,” September 15, 2003

    DCAA Report No. 4171-2003B17900006, “Report on Application of Agreed-
    Upon Procedures on Science Applications International Corporation (SAIC)
    Research and Development Company (Company 1) Costs Incurred and the
    Revised Proposal Under Contract DASW01-03-F-0508,” July 9, 2003

    DCAA Report No. 4171-2003B17900005, “Report on Application of Agreed-
    Upon Procedures to Science Applications International Corporation, Research
    and Development Company (SAIC, Company 1), Costs Incurred Under the Base
    Period and Proposal for 30-day Extension of Contract No. DASW01-03-F-0533,
    Iraqi Free Media Program,” July 3, 2003


Agency for International Development
    Inspector General, United States Agency for International Development,
    Memorandum 03-003, “USAID’s Compliance with Federal Regulations in
    Awarding the Iraq Infrastructure Reconstruction Contract,” July 23, 2003


                                        38
    Inspector General, United States Agency for International Development,
    Memorandum 03-002, “USAID’s Compliance with Federal Regulations in
    Awarding the Iraq Personnel Support Services Contract,” June 20, 2003

    Inspector General, United States Agency for International Development,
    Memorandum 03-001, “USAID’s Compliance with Federal Regulations in
    Awarding the Iraq Education Sector Contract,” June 6, 2003


General Services Administration
    Inspector General, General Services Administration, Report Number
    A020144/T/5/Z04002, “Audit of Federal Technology Service’s Client Support
    Centers,” January 8, 2004

    Inspector General, General Services Administration, Special Report, “MAS
    Pricing Practices: Is FSS Observing Regulatory Provisions Regarding Pricing?”
    August 24, 2001




                                      39
Appendix E. Documentation Issues
  Contract Number                     Contractor Name                     PNM            J&A   Cost/Tech    IGE
                                                                                               Evaluation
DASW01-01-A-0069                 Advanced Systems
                                 Development, Incorporated                                                  X
Order Numbers 2704                                                           X            *
and 2708
DASW01-03-F-0640                 Dataline, Incorporated                                            X        X
DASW01-03-F-0466                 Dell Marketing, LP                                       *        X        X
DASW01-03-F-0407                 Force 3                                                           X        X
DASW01-03-P-0557                 Giesecke & Devrient America,                                      X
                                 Incorporated
DASW01-03-F-0592                 Intelligent Enterprise                                            X        X
                                 Corporation
                                                                                          *
DASW01-03-F-0912                 International Global Systems,                                     X        X
                                 Incorporated
                                                                                          *
DASW01-03-P-0412                 Jerold Schulman International,                                    X        X
                                 Incorporated
                                                                                          *
DASW01-03-F-0510                 Military Professional                                             X        X
                                 Resources, Incorporated
DASW01-03-F-0677                 Military Professional                                                      X
                                 Resources, Incorporated
                                                                                          *
DASW01-03-F-0507                 MZM, Incorporated                                        *        X        X
DASW01-03-P-0465                 Native American Industrial                                                 X
                                 Distributors, Incorporated
                                                                                          *
DASW01-03-F-0396                 Red River Computer Company                               *        X        X
DASW01-03-P-0366                 RONCO Consulting                                                           X
                                 Corporation
DASW01-03-C-0032                 S&K Technologies,                                                 X        X
                                 Incorporated
                                                                                          *
DASW01-03-F-0500                 SAIC                                                                       X
DASW01-03-F-0508                 SAIC                                                                       X
DASW01-03-F-0512       SAIC                                                                                 X
DASW01-03-F-0516       SAIC                                                                                 X
DASW01-03-F-0533       SAIC                                                  X                     X
DASW01-03-F-0536       SAIC                                                                                 X
DASW01-03-F-0537       SAIC                                                  X                     X        X
DASW01-03-F-0903       SAIC                                                  X            X        X
DASW01-03-F-0397       Unisys Corporation                                                                   X
Missing Documentation Totals                                                 4            1        14       21
J&A Justification and Approval for Other Than Full and Open Competition
IGE Independent Government Estimate
X Documentation was missing from the contract file.
* A J&A is not required on contracts that were competed or sole-source 8(a) contracts.




                                                                 44
Appendix F. Surveillance Information
Contract Number                  Contractor Name                  CONUS              In-theater                Adequate
                                                                   POC                  POC                   Surveillance
                                                                  Assigned            Assigned
DASW01-01-A-0069               Advanced Systems                        Yes                  *                    Unknown
Order Numbers 2704             Development,
and 2708                       Incorporated
DASW01-03-F-0640               Dataline, Incorporated                  Yes                 *                        Yes
DASW01-03-F-0466               Dell Marketing, LP                      Yes                 *                        Yes
DASW01-03-F-0407               Force 3                                 Yes                 *                        Yes
DASW01-03-P-0557               Giesecke & Devrient                     Yes                Yes                       Yes
                               America, Incorporated
DASW01-03-F-0592               Intelligent Enterprise                  Yes                  *                       Yes
                               Corporation
DASW01-03-F-0912               International Global                    Yes                Yes                       Yes
                               Systems, Incorporated
DASW01-03-P-0412               Jerold Schulman                         Yes                  *                       Yes
                               International,
                               Incorporated
DASW01-03-F-0510               Military Professional                   Yes                Yes                        No
                               Resources,
                               Incorporated
DASW01-03-F-0677               Military Professional                   Yes                Yes                        No
                               Resources,
                               Incorporated
DASW01-03-F-0507               MZM, Incorporated                       Yes                Yes                        No
DASW01-03-P-0465               Native American                         Yes                Yes                        No
                               Industrial Distributors,
                               Incorporated
DASW01-03-F-0396               Red River Computer                      Yes                  *                       Yes
                               Company
DASW01-03-P-0366               RONCO Consulting                        Yes                Yes                        No
                               Corporation
DASW01-03-C-0032               S&K Technologies,                  Unknown             Unknown                    Unknown
                               Incorporated
DASW01-03-F-0508               SAIC                                    Yes              Yes                        No
DASW01-03-F-0533               SAIC                                    Yes              Yes                        No
DASW01-03-F-0516               SAIC                                    Yes              Yes                        No
DASW01-03-F-0512               SAIC                                    Yes              Yes                        No
DASW01-03-F-0500               SAIC                                    Yes              Yes                        No
DASW01-03-F-0537               SAIC                                    Yes            Unknown                    Unknown
DASW01-03-F-0536               SAIC                                    Yes              Yes                        No
DASW01-03-F-0903               SAIC                                    Yes                *                        No
DASW01-03-F-0397               Unisys Corporation                      Yes            Unknown                      No
Totals                                                                 23                13
* These contracts did not require an in-theater POC because the supplies or services were to be provided in the United States.




                                                                  45
Appendix G. Report Distribution

Coalition Provisional Authority
Administrator, Coalition Provisional Authority
Inspector General, Coalition Provisional Authority

Office of the Secretary of Defense
Under Secretary of Defense for Policy
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Office of the Administrative Assistant to the Secretary of the Army
  Commander, Defense Contracting Command-Washington
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Agencies
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of the Inspector General, General Services Administration




                                           46
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Foreign Operations, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Foreign Operations, Export Financing and Related Programs,
  Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Committee on International Relations




                                       47
Office of the Under Secretary of Defense for
Policy
                                               Final Report
                        5
                                                Reference




                                               Redirected
                                               and Changed
                                               Recommen-
                                               dation 1
                                               Page 30




                       49
Administrative Assistant to the Secretary of the
Army




                        50
51
52
     Final Report
      Reference




     Page 13




53
54
55
56
57
58
59
60
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

David K. Steensma
Terry L. McKinney
John A. Seger
Stacie A. Rimmer
Julie A. Yerkes
Melinda A. Schreyer
Monica L. Noell
Theresa Tameris
